<html>
<title> - PROMOTING SECURITY THROUGH DIPLOMACY AND DEVELOPMENT: THE FISCAL YEAR 2011 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>  

 
55-126PDF

2010

 PROMOTING SECURITY THROUGH DIPLOMACY AND DEVELOPMENT: THE FISCAL YEAR 
                                  2011
                      INTERNATIONAL AFFAIRS BUDGET

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2010

                               __________

                           Serial No. 111-88

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
          Jessica Lee, Professional Staff Member deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     Peter Quilter, Senior Professional Staff Member deg.<greek-l>
      Edmund Rice, Senior Professional Staff Member deg.<greek-l>
      Daniel Silverberg, Senior Deputy Chief Counsel deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
              Shanna Winters, Chief Counsel deg.<greek-l>
             Brent Woolfork, Professional Staff Member deg.
        Diana Ohlbaum, Senior Professional Staff Member<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
   Genell Brown, Senior Staff Associate/Hearing Coordinator<greek-l>
                     Riley Moore, Deputy Clerk deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Hillary Rodham Clinton: Prepared statement.........     8

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    55
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    57
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    61
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    69
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    70
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    71
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    73
Questions for the record submitted to the Honorable Hillary 
  Rodham Clinton by:
  The Honorable Eni F.H. Faleomavaega............................    78
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    80
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    90
  The Honorable Dan Burton, a Representative in Congress from the 
    State of Indiana.............................................    91
  The Honorable Barbara Lee, a Representative in Congress from 
    the State of California......................................   101
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................   113
  The Honorable Shelley Berkley, a Representative in Congress 
    from the State of Nevada.....................................   115
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................   117

 
 PROMOTING SECURITY THROUGH DIPLOMACY AND DEVELOPMENT: THE FISCAL YEAR 
                   2011 INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. Welcome, 
Madam Secretary.
    In order to maximize the time for member questions, I will 
limit openings statements to myself and the ranking member. I 
intend to keep my statements short, well shorter than usual. 
And all other members are welcome to submit written statements 
for the record.
    Madam Secretary, we appreciate this opportunity to explore 
with you the President's international affairs budget request 
for Fiscal Year 2011, the supplemental appropriations request 
for the current fiscal year, and the various policy initiatives 
you have championed as Secretary of State.
    This is the second budget request submitted by this 
administration, but the first one prepared from start to finish 
under President Obama's and your leadership. So this is the 
first opportunity for Congress and the Nation to see a clear 
and comprehensive picture of your vision and the priorities you 
have set.
    We applaud the President's decision to define ``national 
security'' to include not only the Defense budget, but also the 
international affairs budget. As you have said on many 
occasions, America's national security depends not only on our 
men and women in uniform, but also on the civil servants who 
risk their lives on a daily basis to support America's 
interests abroad.
    Regrettably, this point was brought home by the recent 
deaths of a dedicated Foreign Service officer in the Haitian 
earthquake and seven CIA officers at the hands of a suicide 
bomber in Afghanistan. These courageous civilians gave their 
lives in service to our country.
    Our diplomats and development specialists work day and 
night to head off international crises before they erupt, and 
to prevent the onset of failed states where terrorists who 
threaten our security find safe haven. Over the long run, these 
civilian efforts are much more cost effective than putting our 
brave soldiers in harm's ways. Investing in the international 
affairs budget is the proverbial ounce of prevention. For 
example, if we are to resolve the Iranian nuclear crisis, 
whether by diplomacy or sanctions, it will be thanks mainly to 
the creativity and hard work of our diplomats and civil 
servants.
    Madam Secretary, you have set out very clear priorities in 
this budget: Working with the local partners to defeat al-Qaeda 
in Afghanistan and Pakistan; ensuring that children around the 
world have enough food to eat and don't die of easily 
preventable diseases; helping nations reduce emissions and 
adapt to climate change; putting women front and center in our 
humanitarian and development efforts; and rebuilding our 
civilian workforce by hiring a new generation of Foreign 
Service Officers and giving them the training and resources 
they need to make a real difference.
    There may be differences of opinion about the relative 
priority of these initiatives and the optimal amount of funding 
for specific countries and programs, but I, and I hope my 
colleagues on this committee, will do everything we can to 
maintain the overall funding level because we recognize--as you 
do--that diplomacy and development are integral to our national 
security.
    In fact, a full 18 percent of the international affairs 
budget request--$10.8 billion--is for the frontline states of 
Afghanistan, Pakistan and Iraq. That includes $1.6 billion for 
programs that were previously carried out by the Pentagon, 
including Iraqi police training, the Pakistan Counterinsurgency 
Capabilities Fund, and Section 1207 reconstruction and 
stabilization assistance. By having the State Department assume 
responsibility for these programs, we place them in civilian 
hands where they belong and now allow the military to focus on 
its core mission.
    There are many ways to look at the budget figures. I would 
argue that in order to compare apples to apples, the Fiscal 
Year 2010 total should include supplemental funding--both the 
new request and ``forward funding'' provided in the 2009 
supplemental. Looking at it that way, the Fiscal Year 2011 
request represents a very modest increase, about 2.8 percent.
    In these difficult economic times, it is particularly 
important to remind ourselves and the American people that the 
international affairs budget is little more than 1 percent of 
the entire Federal budget, and only a small fraction of the 
amount we spend on defense.
    Madam Secretary, we look forward to hearing your testimony 
on the budget request and the administration's foreign policy 
priorities. And now I am very pleased to turn to my ranking 
member, Ileana Ros-Lehtinen, for any opening remarks that she 
might want to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Madam 
Secretary, welcome back to our Foreign Affairs Committee. For 
the sake of time I am going to incorporate my questions into 
the opening statement to allow time for more members to raise 
their concerns during the question period.
    Our existing public debt is already more than $12 trillion. 
Under the President's overall budget for Fiscal Year 2011 our 
national debt would grow at an estimated rate of almost $4 
billion per day. Our foreign aid funding is not a major part of 
the overall budget we know, and we want to accomplish many 
things overseas, but in light of our fiscal situation the 
international affairs budget should also be subject to 
selective freezes or slower rates of spending in order to 
assist in the battle for our Nation's economic future.
    The $9.5 billion requested for the State Department's basic 
salaries and operations when combined with last year's 
increases amounts to a 33 percent jump from Fiscal Year 2009 
levels. These increases do not include, of course, funds sought 
in the anticipated supplemental for Iraq, Afghanistan, and 
Pakistan. There are reports that we are spending $1 billion, $1 
billion for a new U.S. Embassy in London described as a crystal 
form that is light-filled and light-emitting. We all want to 
provide for the security of our overseas personnel, but we 
should be able to meet those needs without seeking to build a 
crystal palace.
    There is a 22 percent increase for the International Atomic 
Energy Agency, which according to GAO has provided millions in 
assistance to the nuclear program of Iran and Syria. The 
international affairs account has grown significantly over the 
past decade. It was $23.4 billion in Fiscal Year 2000. By 2010 
it was at $50.6 billion. That is a 116 percent increase.
    I would like our foreign aid budget to move to a greater 
reliance on development credit assistance, which should help us 
achieve considerable savings. As the State Department's own 
documents note, the development credit account has historically 
leveraged significant amounts of private funds for development 
projects.
    Turning to policy questions, Madam Secretary, on Iran the 
recent IAEA report stated concerns ``about the possible 
existence in Iran of undisclosed activities related to 
development of a nuclear payload for a missile.''
    Then today's news report have Russian officials refuting 
claims that Iran could be pursuing nuclear weapons while 
emphasizing Russia's commitment to delivering advanced air 
defense missiles to Iran. Some European officials are also 
quoted suggesting that sanctions should come later and 
investments in Iran continue.
    Madam Secretary, successive U.S. administrations, under the 
guise of seeking multilateral concessions, have taken no action 
under the Iran Sanctions Act, and the Iranian threat keeps 
growing. When are companies like Royal Dutch Shell, France's 
Total, Russia's Gazprom, and Spain's Repsol going to be held 
accountable for their actions? When will we take action to 
address the almost $3 billion in investments by China's 
Sinopec? When will we be leveraging the Iran Sanctions Act for 
concrete cooperation from our allies and cutting off the regime 
in Iran?
    Turning to Cuba, I am also deeply concerned about reports 
that the administration might bend to the Cuban regime's 
blackmail and agree to end anti-censorship and pro-democracy 
programs in exchange for the release of U.S. citizen Alan 
Gross. As you know, Orlando Zapata Tamayo, a Cuban dissident in 
jail, died this very week from a hunger strike and we must do 
all that we can to help with the dissident movement and help 
with the opposition in Cuba.
    I would like to hand to you a copy of a February 3rd letter 
addressed to you from former U.S. Ambassadors to the Western 
Hemisphere countries urging you ``to not make any concessions 
to any dictatorial regime and particularly not to Cuba.''
    And lastly, turning to PA funding and UNRWA, a former 
Palestinian anti-corruption official has reportedly revealed 
that Palestinian officials have stolen hundreds of millions in 
foreign aid, yet the administration is requesting another $0.5 
billion, including $150 million in direct cash transfers for 
the Palestinian Authority.
    Similarly with respect to the United Nations' Relief and 
Works Agency, the homicide bomber who killed 7 Americans at a 
base in Afghanistan previously worked at UNRWA, in an UNRWA 
camp and had significant radical Islamic ties. UNRWA also 
continues to agitate against Israel while refusing to vet 
radical Islamic extremists in its very ranks. Yet the 
administration just announced another $40 million to UNRWA.
    What is it going to take for the U.S. to stop the no 
strings attached pipeline of funds to the PA and to UNRWA?
    And Madam Secretary, Mr. Chairman, 1\1/2\ minutes to go. I 
yield back the balance of my time. Thank you and welcome. Glad 
to hear that the President is doing much better.
    Chairman Berman. Well, thank you very much.
    Madam Secretary, I yield myself 5 minutes to begin the 
questioning--oh, yes. Do you want to testify? We can really 
save a lot of time.
    Secretary Clinton. Mr. Chairman, I will do it in a New York 
minute.
    Chairman Berman. No, no, no, you take all the time that you 
want. This is important.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Well, first let me say to you and to the 
ranking member and to all of the members of the committee that 
it is a pleasure to be back with you today.
    When I was last here discussing our budget, I emphasized my 
commitment to elevate diplomacy and development as core pillars 
of American power, and since then I have been heartened by the 
bipartisan support of this committee and the rest of Congress, 
and I want to take this opportunity to thank you on behalf of 
the men and women who work every day for the State Department, 
for USAID here at home and around the world putting our foreign 
policy into action, advancing America's interests and values. 
And that is what this budget we are presenting today intends to 
do.
    Our Fiscal Year 2011 requests for the State Department and 
USAID totals $52.8 billion. That is a $4.9 billion increase 
over 2010. Of that increase, $3.6 billion will go to supporting 
efforts in the front line states, Afghanistan, Pakistan and 
Iraq. Other funding will grow by $1.3 billion, which is a 2.7 
percent increase that will help us address global challenges, 
strengthen partnerships, and ensure that the State Department 
and USAID are equipped with the right people and resources.
    Over the past 6 weeks in Haiti we have been reminded yet 
again of the importance of American leadership. I am very proud 
of what our country has done. Our military and civilian 
personnel have performed extraordinarily, and we are continuing 
our work with our Haitian and international partners to address 
the ongoing suffering and transition from relief to recovery.
    Now, Mr. Chairman, I know that this is a time of great 
economic strain for our fellow Americans, and as a former 
Member of Congress I know what this means for the people you 
each represent. For every dollar we spend we have to show 
results. That is why this budget must support programs vital to 
our national security, our national interests, and our 
leadership in the world while guarding against waste, 
duplication and irrelevancy, and I believe it achieves those 
objectives.
    The figures in the budget are more than numbers on a page. 
They tell the story of the challenges we face and the resources 
we need to overcome them. We are fighting two wars that call 
for the skill and sacrifice of our civilians as well as our 
troops.
    We have pursued a dual track approach to Iran that has 
exposed for the world to see its refusal to live up to its 
responsibility, and it has helped us achieve a new unity with 
our international partners. Iran has left the international 
community little choice, but to impose greater costs for its 
provocative steps, and we are now working actively with other 
countries to prepare and implement new measures to pressure 
Iran to change course.
    We also achieved this past year unprecedented unity in 
response to North Korea's provocative action, even as we leave 
the door open for a restart of six party talks. We are moving 
closer to a fresh nuclear agreement with Russia, one that 
advances our security while furthering President Obama's long-
term vision of a world without nuclear weapons.
    With China we are seeking areas of common purpose while 
standing firm where we differ. We are making concrete our new 
beginning with the Muslim world, and we are strengthening 
partnerships with allies in Europe and Asia, with friends in 
our own hemisphere, and with countries around the world from 
India to Indonesia to South Africa, Brazil and Turkey. And yes, 
we are working every day to end the impasse and the conflict 
between Israelis and Palestinians.
    At the same time we are developing a new architecture of 
cooperation to meet global challenges that cross national 
boundaries like climate change and the use of our planet's 
oceans. In so many instances our national interests and the 
common interests converge, and so from the Western Hemisphere 
to Africa, Asia and the Middle East we are promoting human 
rights, the rule of law, democracy and Internet freedom. We are 
fighting poverty, hunger and disease, and we are working to 
ensure that economic growth is broadly shared.
    Our agenda is ambitious because the times demand it. 
America is called to lead, and we need the tools and resources 
to exercise that leadership wisely and effectively. We can bury 
our heads in the sand and pay the consequences later or we can 
make hard-nosed, targeted investments now, addressing the 
security challenges of today while building a stronger 
foundation for security and prosperity in the future.
    Let me quickly highlight the three areas where we are 
making significant new investments, first in the security of 
the front line states. In Afghanistan we have tripled the 
number of civilians on the ground and this presence will grow 
by hundreds more with the $5 billion in this budget. Our 
diplomats and development experts are imbedded with our 
military. They have moved into Marja along with our forces, 
they are now helping to set up institutions, expand economic 
opportunities, and provide meaningful alternatives for 
insurgents ready to renounce violence in al-Qaeda and join 
Afghan society in a peaceful way.
    In Pakistan our request includes $3.2 billion to combat 
extremism, promote economic development, strengthen democratic 
institutions, and build a long-term relationship with the 
Pakistani people. This includes funding of the Kerry-Lugar-
Berman initiative, and I want to thank you, Mr. Chairman, for 
your visionary leadership on this legislation.
    Our request also includes a 59 percent increase in funding 
for Yemen to help counter the extremist threats and build 
institutions and economic opportunity.
    In Iraq we are winding down our military presence and 
establishing a more normal civilian mission. Our civilian 
efforts will not and cannot mirror the scale of our military 
presence, but rather provide assistance consistent with the 
priorities of the Iraqi Government. So our request includes 
$2.6 billion for Iraq to enable us to support the democratic 
process and ensure a smooth transition to civilian led security 
training and operational support. As these funds allow 
civilians to take responsibility for these programs, the 
Defense Department's budget for Iraq will decrease by about $16 
billion. That is a powerful illustration of the return on 
civilian investment.
    We are blessed, as we all know, with the best troops in the 
world as we have seen time and time again, but we have got to 
give our civilian experts the resources that we ask them to 
exercise as they go about doing what they are expected to do, 
and the budget takes a step in that direction. It includes $100 
million for a State Department Complex Crisis Fund, replacing 
the 1207 fund through which the Defense Department directed 
money toward crisis response. It includes support for the 
Pakistan Counterinsurgency Capability Fund, which previously 
also fell under the Defense Department.
    The second major area is investing in development. This 
budget makes targeted investments in fragile societies which in 
our interconnected world bear heavily on our own security and 
prosperity. These investments are a key part of our efforts to 
get ahead of crisis rather than just responding to them, 
positioning us to deal with the threats and challenges that lie 
before us.
    The first of these is in health. Building on or progress, 
treating HIV, Malaria, and tuberculosis, our global health 
initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in Fiscal Year 2011, to help partners address 
specific diseases but also to build strong sustainable health 
systems for themselves.
    The administration has also pledged at least $3\1/3\ 
billion a year in food security over 3 years, and this year's 
request includes $1.6 billion, of which $1.2 billion will be 
funded through the State Department. This funding will focus on 
countries that have developed effective, comprehensive 
strategies where agriculture is central to prosperity and 
hunger remains widespread.
    On climate change our request of $646 million seeks to 
promote the United States as a leader in green technology and 
to leverage other countries cooperation, including through the 
Copenhagen Accord, which for the first time brought developed 
and developing countries together on this challenge. This is 
part of the administration's total request of $1.4 billion to 
support core climate change activities in developing nations.
    Our request also includes $4.2 billion for humanitarian 
assistance programs. Our efforts in Haiti have made clear that 
State and USAID must be able to respond quickly and effectively 
to human tragedies.
    These initiatives are designed to enhance American 
security, help people in need, and give the American people a 
strong return on their investment. Our aim is not to create 
dependency, but to help people develop solutions that they can 
sustain for themselves over the long term. And essential to 
this is a focus on advancing equality and opportunity for women 
and girls, who are the key drivers of economic and social 
progress in the developing world.
    And that brings me to the third and final area of 
investment. None of this can happen if with do not recruit, 
train and empower the right people for the job. The State 
Department and USAID are full of talented and committed public 
servants, but too often we have neglected to give them the 
tools they need to carry out their missions on the ground. 
Rather than building their expertise, we have often relied on 
contractors, sometimes with little oversight and often with 
increased costs.
    This budget will allow us to expand the Foreign Service by 
over 600 positions, including an additional 410 for the State 
Department and 200 for USAID. It will also allow us to staff 
the standby element of the civilian reserve corps, which a 
crucial tool we are developing to respond to crisis.
    Now while deploying these personnel does generate new 
expenses in some accounts, it will reduce expenses in others by 
changing the way we do business. We are ending an overreliance 
on contractors and finding opportunities to save money by 
bringing essential functions into government and improving 
oversight.
    One thing that I hope is clear from this budget is that the 
State Department and USAID are taking a lead in carrying out 
the United States foreign policy and national security agenda. 
As we finish the first ever Quadrennial Diplomacy and 
Development Review, we have a unique opportunity to define the 
capabilities we need and then match resources with priorities.
    This budget aligns our investments with the strategic 
imperatives of our time. We are putting a lot of effort into 
the management of the State Department and USAID. We are asking 
a lot of hard questions, and we come to you with a commitment 
to be responsive as we have done so this past year.
    At a time of change and challenge at home and abroad we 
believe these investments will enhance the security of 
Americans, assure the future of American leadership and help 
build the foundations of peace, stability, and prosperity for 
the years ahead.
    I look forward to continuing to work with you and I would 
be pleased to take your questions, Mr. Chairman.
    [The prepared statement of Secretary Clinton 
follows:]<greek-l>Hillary Clinton deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much, and now I yield 
myself 5 minutes to begin the questioning.
    I want to start out by truly commending the administration 
for its sincere and full effort to engage Iran in the goal of 
stopping the Iranian nuclear program. It is regrettable that 
the Iranians have not accepted the President's outstretched 
hand. The world has seen the President's efforts at engagement 
have been met by an Iranian clenched fist. If there are any 
doubts about the nature of the Iranian regime, they have been 
erased by fraudulent elections and brutal repression of 
dissent. If there was any doubt about Iran's intention of 
having a nuclear weapons capability, the revelations of the 
last 3 or 4 months surely have removed those doubts by any 
objective standard. We have tried engagement, and I believe we 
should remain open to a diplomatic solution, but I think it is 
time to shift our focus to implementing effective sanctions, 
sanctions that maximize the chance that Iran will change its 
decision, change its course, and end its effort to seek that 
nuclear weapons capability.
    The question is what kinds of sanctions work. I think it is 
a mistake for us to try and draw you out fully as you are 
engaged in an important diplomatic process at the Security 
Council and with other countries bilaterally to develop that 
strategy. But I do want to raise a more general issue. There 
are people around who say the words ``targeted'' and ``smart 
sanctions'' get thrown around all the time. The test is whether 
the sanctions maximize the chances of achieving the goal of 
changed behavior on these issues. And some say our targeting of 
sanctions should be limited to individuals, we don't want to 
cause any economic deprivation to the Iranian people beyond 
that which the regime's own policies have foisted on their 
people. I don't understand how we can have the level of 
sanctions that can change behavior without it unfortunately 
having consequences on the Iranian people. But we are talking 
about in the context of Iran, hundreds of thousands of Iranians 
have put their lives on the line to protest their regime. They 
are suffering in some cases executions, mass arrests, show 
trials, beatings and all kinds of brutality. The notion that 
because of the regime's behavior their economic deprivation, 
which is already serious, may grow. The notion that that causes 
them to rally behind the very regime that has caused them to go 
in the streets to me makes no sense.
    And I guess I would like to get your thoughts on this issue 
of sanctions that are called smart because they have no impact 
on the Iranian people versus sanctions that could change 
behavior.
    Secretary Clinton. Well, Mr. Chairman, first let me 
underscore what you said about the importance of the 
President's strategy this past year. We believe strongly that 
the President's leadership and willingness to reach out for 
engagement with the Iranians was exactly the right approach for 
two reasons. First, as he said in his Inaugural Address, he was 
willing to stretch out his hand but people had to unclench 
their fist. Offering the Iranian leadership the opportunity to 
engage in a serious way was a necessary and important step 
which the President has been willing to take against some 
political criticism, as you know.
    But secondly, the fact that the Iranian regime has failed 
to respond and indeed in the course of this past year has shown 
its brutality toward its own people and the revelations that 
have come to light about the undisclosed facility at Qom, their 
failure to accept the Russian, United States and French offers 
through the IAEA on helping to provide the uranium they were 
needing for the Tehran research reactor, their decision to try 
to enrich to a higher percentage. All of the litany that we 
know of the actions they have taken and the IAEA's much more 
robust conclusions about that have demonstrated to the rest of 
the world what the facts are about Iran's ambitions and about 
its refusal to engage in a serious manner.
    Therefore, we in the pursuit of a very aggressive 
diplomatic campaign believe that the broader the approach on 
sanctions against Iran, the more isolation and pressure Iran 
will feel. It is therefore important that we speak with one 
voice, one voice within our Government and one voice 
internationally against Iran's failure to live up to its 
responsibilities. And so we have done an intensive consultation 
process around what we see as the most effective approaches to 
sanctions. And I personally have engaged in numerous 
discussions with many countries, when I was in London just 
recently, in the Gulf next week, in Latin America, pointing out 
how the evidence all adds up. And I think because we were 
willing to engage we have a much more receptive audience than 
we might have had otherwise. And I think that our efforts to 
move forward in the Security Council should not be viewed as 
our exclusive efforts because we have also stated clearly we 
will look at additional bilateral and preferably multilateral 
sanctions with willing nations on top of whatever we get out of 
the Security Council.
    So in sum, we believe in a broad approach, we believe that 
we have to be as focused on what could change attitudes and 
behavior within the leadership of Iran. As you might have 
noticed, I was very clear in my remarks when I was in Doha and 
Jeddah last week about the increasing role that the 
Revolutionary Guard is playing in the politics and economy of 
Iran.
    So our goal is your goal. If we are going to go to the 
international community through the U.N., through other 
multilateral efforts, we want sanctions that will be effective 
and we think the broader, the more likely that is to be.
    Chairman Berman. Thank you very much. I do note that in 
consultation with the ranking member we did something which 
should not be considered oppressive with respect to time, but I 
thought this was important enough issue to fully develop. I now 
am pleased to recognize the ranking member for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much Mr. Chairman. Thank 
you, Madam Secretary.
    Why is the administration doing nothing to pass the free 
trade agreements with Colombia, South Korea, Panama? Solid U.S. 
allies, wonderful friends, very pro-American. Will you and 
President Obama become engaged in trying to pass these FTAs?
    Secondly, why did we join the U.N. Human Rights Council if 
we were going to do nothing by being on the Council? We were 
supposed to change it from within, yet in the time we have been 
there the United States has not called for a special session or 
even sponsored a resolution to try to promote it on the human 
rights violation in Iran, and North Korea, and Syria, Sudan, 
Cuba, Venezuela, Saudi Arabia, Russia, you name it, nada.
    And lastly, Madam Secretary, if you could please comment on 
the death of Orlando Zapata Tamayo, the Cuban dissident who I 
referred to in my opening statement.
    Thank you.
    Secretary Clinton. Thank you very much. Let me start where 
you ended. The United States Government deeply regrets the 
death of Orlando Zapata Tamayo and we send our condolences to 
his family, and we also reiterate our strong objection to the 
actions of the Cuban Government. This is a prisoner of 
conscience who was imprisoned for years for speaking his mind, 
for seeking democracy, for standing on the side of values that 
are universal, who engaged in a hunger strike. The United 
States Government consistently requested that he be given 
medical assistance. And unfortunately, he paid for his courage 
and his commitment with his life. He is one of more than 200 
prisoners of conscience held by the Cuban Government, and we 
continue to reiterate and in the strongest possible terms put 
forth a strong objection to the existing behavior and a hope 
that through the consistent pressure that we can place on the 
Cuban Government over matters like this that these prisoners of 
conscience will eventually be released.
    Secondly, with respect to the Human Rights Council, 
actually, Congresswoman, there was a Human Rights Council 
session on Iran and the deplorable human rights record of Iran. 
Just last week the United States was there and made a very 
strong and forceful presentation; Assistant Secretary Posner 
from Democracy Human Rights Bureau in the State Department led 
our efforts, and I think we again made a historic record in 
front of Iran.
    Now they don't care about their people so they are not 
going to care about the world exposing these constant human 
rights abuses, but I think it is far better for us to be 
exercising our freedom of expression and our strong beliefs 
inside that Council and forcing others to look at the evidence 
that is presented. So for the past year that is exactly what we 
have been doing and we will continue to do so.
    And finally on the free trade agreements, as President 
Obama said in his State of the Union Address last month, we are 
committed to these free trade agreements and we hope that we 
can begin a process of consultation and consensus building 
within the Congress. I will be going to Latin America next 
week. I share your characterization of Colombia and Panama, two 
of our strongest allies and two countries that have worked very 
hard to make changes and create a conducive atmosphere to these 
free trade agreements being confirmed here in our Congress.
    So we are going to be working on this, and I appreciate 
your raising it because I personally believe it is a very 
important issue.
    Ms. Ros-Lehtinen. Thank you so much, Madam Secretary. Yes, 
I do realize that we did have that periodic review on Iran, but 
it was not U.S. sponsored, it was not a special session, and 
that is why I raise it. I want us to be more involved now that 
we are part of that rogue's gallery. Fortunately we are not a 
rogue regime, but unfortunately then we become part of the 
problem. I would like for the U.S. to be the sponsor and call 
for special sessions.
    Thank you, Madam Secretary. Thank you, Mr. Chairman.
    Chairman Berman. Thank you very much. And now the gentleman 
from New York, chairman of the Middle East and South Asia 
Subcommittee, Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. Good to see you, 
Madam Secretary. Difficult to let this historic moment go by 
without noting that so many of us are feeling buyer's regret 
that in a previous incarnation we allowed your health plan 
proposal to go by the boards. What a different place we would 
be at right now. But this is a different committee.
    I want to spend a moment, if I might, talking about the 
Goldstone report and its implications. This report is a deeply 
flawed and grossly biased political diatribe, a club used to 
beat Israel over the head and attempt to delegitimize its very 
existence; a country that has attempted to defend itself, as 
have we, against terrorists and terrorist attacks and suicide 
bombers and murderers who would destroy so many human beings 
and civilization. But it is not Israel that I raise the concern 
about; it is the implication that this has for the United 
States.
    If this report, which addresses the new kind of warfare 
that we are in, warfare that isn't traditional battlefield 
warfare which has general rules and regulations that the whole 
world has operated under, but going after terrorists who have 
no conscience, who would hide and morph themselves and meld 
into civilian populations, hiding their arms and weapons and 
shedding their uniforms the way they have in the Middle East, 
and the way we have faced them as well. The implications for 
the United States are more than serious. I won't quantify it, 
but the number of civilians that have unfortunately and 
regrettably perished as we, the United States, have pursued 
terrorists whether they be in Iraq, or Afghanistan, or 
elsewhere are certainly a number multiplied by some huge 
multiple compared to the number of civilians that were killed 
as Israel pursued terrorists in Gaza throughout that entire 
incursion.
    It is not difficult to envision the short path, if that 
report is accepted as the international standard, to see what 
happens to our country and envision just the limitations that 
it would place on your travel ability, Madam Secretary, or the 
indictment of some American President or future Secretary, or 
even past, for international war crimes because civilians were 
killed in the pursuit of terrorism, would put a chilling pall 
on our ability to fight the war on terror. How do we address 
this?
    I do want to commend the administration for jumping out 
ahead of this as quickly as it did and doing all the things, 
and I know a lot of things got derailed because of things that 
were not in our control, without going into them, but how do we 
deal with this at this moment in time as this report moves 
forward?
    Secretary Clinton. Well, Congressman, you have highlighted 
one of the serious deficiencies in the report that we have also 
noted. The whole concept of self-defense and the right to self-
defense is one that was not adequately addressed or even taken 
into consideration. There are a number of other deficiencies 
within the report, but you have as usual put your finger on one 
of the potential ramifications that go beyond the findings 
relating to what happened in one place at one time in history, 
and we believe strongly that the issues raised in the Goldstone 
report should be subjected to strong domestic review processes. 
We believe Israel has the capacity and the institutions to do 
so, and in fact Israel, as you know, has undertaken such 
review, as has, I might add, the Palestinian Authority. The 
group that hasn't is Hamas and those who support and fund 
Hamas. And we believe strongly, too, that other countries have 
a stake in supporting our perspective on this, because it is 
not only the United States if this international standard, as 
you say, were to morph out of this report, but nearly every 
other country that would similarly be held to account.
    So I share your concerns, and we have stood very staunchly 
on the side of those who reject the underlying premises of this 
report.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, and welcome, 
Madam Secretary. It is always great to see you.
    Today, Mr. Chairman, ultrasound imaging has given us a 
window to the womb and the child within, and micro surgery and 
a myriad of fetal health interventions are commonplace. Today 
as never before unborn children ought to be viewed as 
humanity's youngest patients in need of proper prenatal care, 
nurturing, and, when sick, diagnosis and treatment.
    The prevention of mother to child HIV transmission got a 
major boost from PEPFAR, and I am happy to say that commitment 
continues and is expanded in the Global Health Initiative. The 
Global Health Initiative must, however, ensure that even the 
unplanned and unintended unborn child is welcomed, cared for, 
and included in the initiative.
    I was disappointed to read on page 14 of the consultation 
document that unintended pregnancy seems to be relegated to the 
status of a disease, juxtaposed between HIV and tropical 
diseases. Pregnancy isn't a disease. The child in the womb is 
neither a tumor nor a parasite to be destroyed.
    I am, Mr. Chairman, deeply concerned that with the 
elimination of the Mexico City policy by Executive Order last 
year, NGO implementing partners may actively seek to integrate 
abortion with the many necessary and noble undertakings funded 
by the Global Health Initiative. Therefore, I respectfully ask 
that the administration consider that for many of us, all 
abortion, legal or illegal, is violence against children, poses 
significant, often under appreciated risks to women, and 
especially, and this is largely unfocused upon, to children 
later born to post-abortive women.
    The term ``safe abortion'' in my opinion is the ultimate 
oxymoron, child dismemberment, forced premature expulsion from 
the womb by chemicals like Misoprostol, and deliberate 
starvation by RU-486 can never ever be construed to be benign, 
compassionate or safe.
    Millennium Development Goal Number 4 seeks the reduction in 
child mortality; abortion is child mortality.
    Safe abortion? At least 102 studies show significant 
psychological harm, major depression, and elevated suicide risk 
to women who abort. Recently the Times of London reported, and 
I quote in pertinent part that ``Senior . . . psychiatrists say 
that new evidence has uncovered a clear link between abortion 
and mental illness in women with no previous history of 
psychological problems.'' They found ``that women who have had 
abortions have twice the level of psychological problems and 
three times the level of depression as women who have given 
birth or who have never been pregnant . . .''.
    In 2006, a comprehensive New Zealand study found that 
almost 80 percent, 78.6 percent to be exact, of the 15- to 18-
years-olds who had abortions displayed symptoms of major 
depression as compared to 31 percent of their peers, and that 
study also found that 27 percent of the 21- to 25-year-old 
women who had abortions had suicidal idealizations compared to 
8 percent of those who did not.
    Safe abortion? Not for subsequent children born to women 
who have had an abortion. At least 113 studies show a 
significant association between abortion and subsequent 
premature birth. For example, a study by researchers Shah and 
Zoe showed a 36 percent increased risk for preterm birth after 
one abortion and a staggering 93 percent increased risk after 
two. Similarly, the risk of subsequent children being born with 
low birth weight increases by 35 percent after one and 72 
percent after two or more abortions.
    Another study showed the risk increased nine times after a 
woman had three abortions. Clearly this terrible consequence 
has been overlooked and under focused upon for far too long.
    What does this mean for her children? Preterm birth is the 
leading cause of infant mortality in the industrialized world 
after congenital anomalies. Preterm infants have a greater risk 
of suffering from chronic lung disease, sensory deficit, 
cerebral palsy, cognitive impairments, and behavioral problems; 
low birth weight is similarly associated with neonatal 
mortality and morbidity.
    Finally, I would respectfully submit that if we are truly 
serious about reducing maternal mortality, women especially in 
the developing world need access to proper maternal health 
care, skilled birth attendants, and safe blood. I had a hearing 
that I chaired years ago on safe blood, and a WHO 
representative said 44 percent of maternal mortality goes away 
in Africa if there is the availability of safe blood.
    So I would ask respectfully that these things be 
considered.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Payne, chairman of the Africa 
Subcommittee, is recognized for 5 minutes.
    Mr. Payne. Thank you very much, and let me commend you, 
Madam Secretary, on your recent trip to Haiti as you flew back 
from a previously planned trip to be there on the ground. Also, 
I want to commend you for the grueling six-country tour you 
took to Africa last year. They are still talking about it. The 
only negative is the countries you didn't go to. Of course 
there are 54, so you have got 48 more to do.
    Let me just bring up a few quick questions. Number one, I 
have some concern about Somalia. As you know, the transitional 
Federal Government of Sheikh Sharif continues to struggle. 
There was not any increase for development aid for Somalia. I 
think if we get the governance program going we will stop the 
piracy because I do know Sheikh Sharif and his people can take 
that under control.
    Secondly, we do see in Sudan an agreement with JEM and the 
Government of Sudan. Of course the Government of Sudan has 
signed a lot of agreements and has broken every one, so I am 
not that optimistic. However, there was a 10 percent reduction 
in ESF funds for South Sudan which is coming up with a big 
referendum next year. I don't think that is the way to go since 
this very important referendum is coming up.
    Thirdly, Liberia has a problem with about 3,500 Liberians 
who are here under DED. On the 30th of March, DED will expire. 
They came here under the reign of Charles Taylor. It is 
Homeland Security/State Department, but if you could look into 
this I would really appreciate being able to call you about 
that.
    [A written response to the inquiry follows:]<greek-l>Payne 
FTR deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Payne. Finally, Nigeria's problem of course with the 
President Yar'Adua being very ill. The Vice President has taken 
over. Yar'Adua has gone back to Nigeria, so we need to take a 
look at that to make sure that we don't have a conflict of two 
Presidents. There are enough problems in Nigeria right now.
    Finally, I am concerned about Morocco's occupation in 
Western Sahara, and I do think that the Saharan people should 
have an opportunity to have the referendum there in Western 
Sahara. The United Nations said it should be done, and the 
Baker plan said it should be done. I think we should go ahead 
and do that.
    Finally, on another issue, on March 9th there will be a 
vote in Northern Ireland. As you know, the Hillsborough Castle 
Agreement for the UPD and Sinn Fein said the evolution process 
will go on. However, we can anticipate there may be violence 
coming up, because we had the car bombing last week. So I would 
wonder if you could look at that and just urge them for the 
March 9th vote to vote yes so that we can get the evolution 
behind us.
    I will wait to hear your answer on those that you can 
answer. Thank you.
    Secretary Clinton. Well, thank you so much, and I will try 
to speak very quickly, Congressman, and as always, thank you 
for your personal and very welcome attention to Africa.
    With respect to Somalia, there are decreases in the funding 
from the State Department, but we are working very hard in 
other accounts as well as with other donors. We share your 
commitment to Sheikh Sharif on the TFG.
    With respect to Sudan, however, we are actually increasing 
the request. It is about 3 percent over the Fiscal Year 2010 
total estimate, and we again share your concern which is why we 
are putting both more funding and more diplomatic attention to 
what is going on in Southern Sudan.
    The Sudan-JEM agreement is welcome. We share your concern 
about whether it is real, but we are working hard on that and I 
met when I was in Doha with the Prime Minister of Qatar who has 
been a facilitator of that effort.
    With Liberia we are making a decision to extend that 
deferred status.
    With Nigeria, Assistant Secretary Johnny Carson was in 
Nigeria and very much involved in the peaceful transition. With 
the return of the President we are going to maintain vigilance 
over what is happening inside Nigeria.
    We support the U.N. process concerning Morocco and the 
Western Sahara.
    Finally, on Northern Ireland, as you may know, I went to 
Northern Ireland. I spoke in Stormont. I have been deeply 
involved with, and telephoning with all of the major players, 
just met with Shaun Woodward, the Secretary for Northern 
Ireland. I share your hope that the March 9th vote is 
affirmative.
    Chairman Berman. Amazing. The time of the gentleman has 
expired.
    The gentleman from Indiana, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. I have two brief 
comments. I want to associate myself with the remarks of Mr. 
Ackerman regarding the Goldstone report. I just signed a letter 
to the Secretary along with you, Mr. Chairman, and others 
regarding that.
    The second thing I wanted to say is that the Sanctions Act 
that you graciously got through the House and has been passed 
in the Senate still has to go to conference committee, and I 
would hope we would get that passed and to the President as 
quickly as possible.
    Third, I want to thank the Secretary of State for her hard 
work. She has been working very hard. It is pretty apparent. 
She has been all over the place and we appreciate your work.
    I have two questions for you, first of all regarding Iran. 
Iran--and we have been talking about this now for several 
years--they have not moved one inch from their development 
program. In fact, IAEA said they are planning 10 more sites and 
several thousand more centrifuges. They are also talking about 
building a bombproof facility in the side of a mountain. And so 
while we are talking about negotiating all kinds of measures to 
put pressure on them, I think that we ought to also be talking 
about an attack on those sites and let them know that the 
United States and Israel, working together, will do whatever it 
takes to stop a development program that will threaten the 
Middle East, our energy supplies and the State of Israel. And 
while we are talking about this, you know, working with our 
allies to put pressure on them through sanctions, I really 
think the message should be sent publicly or through you 
privately that we are prepared to give Israel whatever they 
need to be able to go way below the ground, maybe 100, 200, 300 
feet, whatever it is, to knock out those development sites if 
necessary, because we don't want them to have as a terrorist 
state nuclear weapons that can just destabilize the entire 
region and maybe destroy Israel.
    And so I hope you will maybe comment on that. The other 
thing I would like you to comment on, Madam Secretary, is I was 
informed that the Justice Department has somewhere up to nine 
or maybe even more people working there who did pro bono work 
for some of the terrorists or detainees that are being held at 
Guantanamo. And if that is the case, I am very concerned about 
the decision that is being made by the Justice Department to 
bring those people to the United States for civil trial. People 
may have a biased attitude over there, and I hope that those 
people aren't involved in the decision-making process.
    I personally feel that the terrorists or the detainees 
should be tried at Guantanamo. There is water all the way 
around them, they can't get away, and they should be tried by a 
military tribunal. And the vast majority of the American people 
feel exactly the same way.
    So I would like for you to address those two things. If you 
can't address the first part because of classified information, 
that is fine, but I wish you would take to the President the 
message that many of us in Congress want Tehran and Mr. 
Ahmadinejad to know that we are not going to let them develop a 
nuclear weapons capability and a delivery system. As I 
understand it now, they are working on a missile with a 
delivery system for possibly a nuclear weapon. At least that is 
what the IAEA says and that is very troubling.
    So I hope you will deliver that message and if you could 
comment on those two things, I would appreciate it.
    Secretary Clinton. Well, Congressman, I will convey the 
message. Our policy is to rally the international community for 
the broadest and most effective sanctions that can be brought 
to bear on the Iranian regime and thereby influence the 
decision making.
    One of the benefits of having the IAEA and supporting it, 
as we propose doing in this budget, is because they are viewed 
as an independent source of information. And I agree with you 
that their recent study under the new Director General, 
Ambassador Amano, has been given an enormous amount of 
credibility, which helps to make the case that we are making.
    With respect to your question about the Justice Department, 
obviously I would ask you to refer that to the Attorney 
General. I have no information on the points you are making 
concerning working there, but I would say this: I think that 
the President's commitment to close Guantanamo has been a very 
valuable asset to us as we have made our case around the world. 
Fairly or not, Guantanamo came to be seen as not reflective of 
American values, of the strength of our Constitution and our 
institutions, and I think there are ways to accommodate the 
concerns that are rightly held about the detainees and the 
terrorists. But I still very strongly support the closing of 
Guantanamo.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Sherman, the chairman of 
the Terrorism, Nonproliferation and Trade Subcommittee, is 
recognized for 5 minutes.
    Mr. Sherman. It is good to see you, Madam Secretary.
    The Iran Sanctions Act requires to name and shame those 
companies that invest over the triggering amount, I believe it 
is $40 million, in the Iran oil sector, and to either impose 
sanctions or waive them. Your budget contains tens of millions, 
perhaps hundreds of millions to work in the world for democracy 
and for the rule of law. But for 10 years, three 
administrations have made a mockery of democracy and the rule 
of law here in the United States, as three administrations have 
deliberately failed to follow the minimum, nonwaivable portions 
of the Iran Sanctions Act. In fact, the prior administration 
told me flat out in foreign policy we don't follow those 
statutes that we think are bad policy. This can only be called 
the Dick Cheney approach to the rule of law.
    Last October, a number of us, led by Congressman Ron Klein, 
sent a letter outlining 21 firms that had invested a triggering 
amount in the Iran oil sector. This was prepared not by the CIA 
but the CRS, the Congressional Research Service. We were 
promised by the relevant Assistant Secretary a response, a 
report in 45 days. That was October. This is February. We have 
received a response that says he is still working on it, but 
that he has identified some transactions that are ``potentially 
problematic.''
    Madam Secretary, will you be providing Congress with a 
report, perhaps classified, detailing the findings of this 
initial review? Will you provide us with an explanation in each 
instance of why certain transactions have been determined to be 
not problematic? And, most importantly, will you break with 10 
years of State Department practice and actually follow the law 
by reviewing each transaction that seems to trigger the act and 
by naming, shaming, and either sanctioning or waiving with 
regard to the offending transactions?
    Secretary Clinton. Congressman, thank you very much for 
both your concern and your thoughtful approach. Deputy 
Secretary Jim Steinberg has led an internal State Department 
team on this issue. As you have well stated, there were no 
determinations made under the act in the prior administration.
    We have completed that preliminary review. We responded at 
the beginning of February to the inquiries you mentioned, and 
we indicated that some of the cases we reviewed deserved more 
thorough consideration, which is what we have undertaken. We 
have aggressively moved on three fronts to ensure that the 
review is serious and thorough, and we have a rigorous process 
in place for implementation.
    First, we continue to raise in our bilateral engagements 
with countries the need to strengthen their own reaction and 
present a united front in restricting investment in Iran's 
energy sector.
    Second, we have worked with our embassies overseas to 
collect information on potentially sanctionable activity. There 
wasn't a big, thick file when we got there, Mr. Sherman. We 
were very much starting pretty well from scratch, and we have 
already engaged with all of the companies and the governments 
that were included in the House letter, as well as some 
additional companies that we believe could be engaged in 
similar activities.
    Finally, we are undertaking a review with the intelligence 
community with respect to certain activities of some companies 
that are warranting further scrutiny and have requested an all-
source intelligence community assessment so that we can make 
whole of government assessments.
    I understand that the State Department is working to 
arrange a briefing, a classified briefing, with Members on the 
outcome of this preliminary review.
    Mr. Sherman. I look forward to that. I would like to 
squeeze in three more questions to which I would like response 
for the record.
    First is as to Armenia. I am glad that you are providing 
more aid, but I think Congress should be against that. Thank 
you for having parity on military financing, but you do not 
have parity between Armenia and Azerbaijan as to international 
military training, and there should be a specific aid request 
for Nagorno-Karabagh.
    As to Sri Lanka, I would like you to respond for the record 
how the administration is working with the government to ensure 
the rights of the Tamil minority are protected, particularly of 
the over 300,000 refugees.
    As to Sudan, given the likelihood that Southern Sudan will 
choose independence, what is the United States doing to support 
a successful, independent south, and more broadly a peaceful 
Sudan, and I await your responses in writing.
    Secretary Clinton. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Illinois, Mr. Manzullo, is recognized for 5 
minutes.
    Mr. Manzullo. Thank you very much, Madam Secretary, a 
fellow Illinoisan. Welcome here.
    The state of America's economy continues to struggle with 
unemployment still unacceptably high, and I am sure you have 
heard the jobless claims for February jumped to a record 
496,000 for the week ending on February 20. At the same time 
the Institute for Supply Management shows for the 7th month in 
a row, I believe, it is above 50 and continues to climb to show 
that orders are coming in to our manufacturers. However, 
despite this promising sign, there are two chokepoints that 
remain. Yesterday we brought the first one up with Chairman 
Bernanke, and it is the inability of manufacturers and small 
business people to access credit; and obviously without credit 
they can't meet the payroll, replace inventory, or buy new 
equipment, and these are the real job creators because the 
orders are out there waiting because we have to manufacture our 
way out of this recession, not try to buy our way out of it.
    The second chokepoint is the outdated and inefficient 
export control system that unnecessarily prohibits export of 
items that do not pose a national security threat. The House 
addressed these inefficiencies by giving the State Department 
new tools to process export licenses in the House version of 
the State authorization bill. Unfortunately, the Senate has not 
acted on this.
    Because of your Midwest roots giving rise to a love and 
appreciation for manufacturing and the fact that you have 
always been an outstanding proponent of exporting our 
manufactured goods, we are asking you to use your leadership 
and influence to help move this process forward.
    I am just wondering, first of all, I know that you agree 
with everything that I have said, and my question to you is 
what more can be done? What can you do individually and as 
Secretary of State to break through on these export controls so 
we can ship more things overseas? Last year we had an 
outstanding bipartisan working group that modified section 
17(C) of the Export Administration Act making it easier to ship 
aircraft parts overseas. That has resulted in $1 billion more 
in exports. That is 20,000 jobs that were added in 
manufacturing, or saved just because of that shipment.
    Secretary Clinton. Well, Congressman, I do agree with 
everything you have said, and I thank you for strongly 
advocating for American manufacturing. You are right, there is 
an uptick. We are seeing some positive signs. The President has 
directed that the State Department and the Commerce Department 
and the Defense Department and other elements of the government 
work together to come up with a strong proposal to modify the 
entire export regime because there are so many outdated and 
inefficient aspects to it.
    But as you rightly point out, we have to get congressional 
buy-in across the board on this. So we are working at the 
governmental level. We are reaching out to Members of Congress. 
Your bipartisan working group could be a great partner to us in 
doing this. And you know what the debate comes down to. There 
are some people who say if we lift the export restrictions on 
certain nuts, bolts, and screws we are going to be undermining 
American security. I don't buy that. But there is a very strong 
resistance within the Congress to making the changes that I 
think are not at all dangerous to our security but would help 
our manufacturing.
    I will have someone follow up with you specifically, but we 
need the help of the bipartisan, on both sides of the Hill, 
members who will support what we are trying to do.
    Mr. Manzullo. The other question is we are working--I have 
the world's only fish processor of gefilte fish. Thank you, 
thank you. Believe it or not, it is Asian carp that is being 
caught in the Lower Mississippi and--this is true--and in the 
Great Lakes. Israel has imposed a 120 percent duty. There are 
nine containers of this that are locked up. We are in contact 
with the ambassador from Israel. Passover is coming quickly to 
Israel. We are working with the rabbis there who inspect this 
facility in Thompson, Illinois, and I just want to make this 
public and see if there is anything that you can do to get the 
gefilte fish to Israel by Passover.
    Secretary Clinton. Congressman, I will take that mission 
on.
    Mr. Manzullo. Thank you. Thank you.
    Secretary Clinton. I don't know if I can promise that we 
can get it done, but I will give you my best efforts. And if 
not, we will have to figure out what to do with nine 
containers.
    Mr. Manzullo. It is 55 percent of their product. They could 
lose a couple hundred jobs if we don't get the gefilte fish 
there.
    Secretary Clinton. We should consult with the chairman and 
Congressman Ackerman. This sounds to me like one of those 
issues that is something that should rise to the highest level 
of our Government.
    Mr. Sherman. Thank you, Madam Secretary.
    Chairman Berman. The menu of the next State dinner. The 
time of the gentleman has expired.
    The gentleman from New York, Mr. Engel, the chairman of the 
Western Hemisphere Subcommittee.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Manzullo, I would like to place an order for two jars 
of the gefilte fish. Passover is coming very soon.
    Madam Secretary, thank you very much for the wonderful, 
extraordinary job that you are doing as our Secretary of State. 
I know Mr. Manzullo talked about your Illinois roots. You 
mentioned a New York minute before, and New York is very, very, 
very proud of you. I would like to just throw out a couple of 
things and then ask you to comment.
    I have just come back from a trip to Israel. I met with top 
leaders. All anyone wanted to talk about was Iran, and we have 
had a lot of discussion here about Iran. Obviously, it is a 
very serious situation and we all agree that Iran must not be 
allowed to have a nuclear weapon and I really believe 
ultimately nothing should be taken off the table because they 
really must not be allowed to have a nuclear weapon.
    Syria. I was the author of the Syria Accountability Act, 
which slapped sanctions on Syria for aiding and abetting 
terrorism. I know that as of last week we have opened 
diplomatic relations with them and exchanged ambassadors with 
them for the first time in many, many years. I know the 
rationale for it is to get them to engage and help; but, 
frankly, I haven't seen any change. This is the game that Syria 
has been playing for years and years. I haven't seen any change 
in that regime's behavior. Perhaps something is going on behind 
the scenes that I am not privy to, but I am wondering if you 
can comment on that.
    We talk about Iran and the dissidents in Iran. I know that 
the feeling in some quarters is that we don't want to publicly 
identify with them too much because it will just help the 
regime to identify the dissidents or agents of the United 
States. But I really think we need to have more public support 
for the brave people of Iran who are standing up under 
extraordinary conditions against their regime.
    Kosovo. It just turned 2 years old last week, and we are 
trying very hard to get other countries to recognize them. I 
know the administration has been doing that as well. The 
officials of Kosovo are very interested in getting into the 
EBRD, which is the European Bank for Reconstruction 
Development. They need some countries to vote them in, and I 
would hope that behind the scenes we are helping to convince 
countries to support them in that.
    I want to quickly talk about, since I chair the Western 
Hemisphere Subcommittee, a couple of those issues. First of 
all, thank you for the extraordinary effort of you personally 
and the administration with Haiti. This has been something of 
course that has all gripped us, and I think it is very, very 
important.
    I am delighted to hear of your upcoming travel to Latin 
America. I think we are reengaging the hemisphere after years 
of neglect, and I think it is very, very important. I want to 
talk about drug policy. I believe we need a more holistic 
approach to our counternarcotics strategy in the Western 
Hemisphere. I support strongly the Andean Drug Initiative, the 
Merida Initiative, and the Caribbean Basin Security Initiative, 
but I think we need to do a better job in weaving all of these 
things together. I would like to hear you are thoughts on that 
and what efforts you are taking to better integrate these 
efforts so our successes in certain countries don't contribute 
to problems in other countries.
    I personally have suggested designating a coordinator at 
the State Department to oversee all of our Western Hemisphere 
security initiatives, and would you consider doing this? Would 
you think about this?
    Lastly, two comments. Number one, Venezuela. Yesterday the 
OAs' human rights agencies criticized Venezuela for its 
deteriorating human rights situation, and this follows their 
recent condemnation of Chavez's closure of RCTV and several 
other cable television stations. How are we working with our 
partners in the OAS to call attention to this?
    Finally, as was mentioned before, I am extremely concerned 
about the Cuban imprisonment of USAID contractor Alan Gross. I 
met with his wife yesterday at the Capitol, and needless to 
say, everyone is concerned.
    Can you comment on any or all of those things?
    Secretary Clinton. Congressman, I will certainly give you 
responses to these important issues in writing.
    Let me just briefly say on Syria, the President decided to 
return an ambassador because it is in our national interest to 
do so. This is not any way a reward because there is no basis 
for such a reward for Syria, but it is because we think having 
an ambassador on the ground in Damascus helps to ensure our 
national interests are taken care of, and also to avoid 
strategic miscalculations on the parts of the Syrians.
    So we are very committed to making clear to the Syrians 
what we expect. There is a lot that we do expect. But we think 
having an ambassador back on the ground actually gives us more 
leverage and more opportunity to pursue those expectations.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Royce, is recognized for 
5 minutes.
    Mr. Royce. Thank you, Madam Secretary. I appreciated very 
much your comments last week on Iran, but we should be doing 
more, I think, to target those who are hanging, who are raping, 
who are maiming Iranians. The ranking member and I have 
legislation that would target Iran's human rights abusers with 
travel sanctions, with financial sanctions, and I think a 
concerted effort here would do much to discredit the regime 
both inside and outside Iran.
    Second, I wanted to point out that there are some 200,000 
political prisoners. We discussed a little bit the problem in 
Iran. We have the same problem in North Korea. People are being 
tortured and worked to death, starved to death in the gulags in 
North Korea, and I think pressing human rights should be part 
of our strategic policy toward North Korea.
    Lastly, and I think most importantly for me, is an issue 
that came to light that we are all conversant with now, but a 
Nigerian banker going to the U.S. Embassy stating that his son 
is under the influence of religious extremists in Yemen, as he 
shared with us. And then we find that we have months of 
communication that come through our U.S. intelligence 
intercepts about al-Qaeda having a plan to attack us using a 
Nigerian. And then the response comes from one of the 
administration's spokesmen, and these are his words, ``hunches 
are not enough to constitute reasonable suspicion.'' Really. 
Why is that?
    Well, if you look at the language adopted from a legal 
case, and here we get into the worry that we are becoming too 
legalistic on this, there is Terry v. Ohio, it is a Supreme 
Court case back in 1968 that determined when fourth amendment 
protections against unreasonable searches allow the police to 
frisk American civilians. Somehow the administration went 
forward, and I can't understand how we have foreign terrorists 
somehow being granted fourth amendment reasonable rights that 
the courts intended to protect Americans from being searched by 
local police. Those are two different issues.
    Americans enjoy special rights and protections because we 
carry out the responsibility of being Americans. Those outside 
our border have no part in that compact, especially enemy 
combatants. But increasingly we have this issue. Are 
intelligence officers allowed now to make these hunches? That 
hunch should have been that the visa should be reviewed and 
searched and he should be searched before being allowed to get 
on that plane. So we have to allow our intelligence agents to 
make those determinations.
    I would ask, with the Obama administration leaning toward 
treating terrorism as a matter for domestic law enforcement, 
such as trying terrorists in civilian courts instead of 
military tribunals and making decisions like this that hunches 
are not enough to constitute a reasonable suspicion, are we 
allowing a legalistic culture here to get in the way of 
allowing our intelligence agents to do their job?
    Secretary Clinton. I think the answer, Congressman, is no. 
Obviously there were some deficiencies in how the visa of the 
Christmas Day bomber was treated. And certainly speaking for 
the State Department, we have moved to plug any slight gap that 
we needed to.
    But, you know, since 2001, the State Department has revoked 
51,000 visas for a variety of reasons, including more than 
1,700 for suspected links to terrorism. In addition to 
revocation, in just Fiscal Year 2009, consular officers refused 
nearly 2 million visas; 1,885,000, to be exact. So we have 
people acting on their gut on evidence, on hunches, on the feel 
of their fingertips when they sit across from an applicant in a 
consular interview, and I don't think that story gets out. So, 
yes, there is----
    Mr. Royce. I think that is a good point. But if we have 
someone in the administration who believe that hunches are not 
enough to constitute reasonable suspicion, it only takes one 
terrorist getting through, and that is why I bring the point 
up.
    Secretary Clinton. I appreciate that, and I take it very 
seriously, Congressman. It is on the top of my mind every 
single day since I was privileged to serve as a Senator from 
New York on 9/11.
    Chairman Berman. The time of the gentleman has expired.
    The chairman of the Europe Subcommittee, the gentleman from 
Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Welcome, Madam Secretary. I am not going to 
talk about Europe, but I would note that yesterday the 
committee had an excellent interparliamentary exchange with the 
state members of the Russian Duma, and it would appear that 
significant progress is being made on the START treaty. Let me 
congratulate you. If we can get that done, that is a 
significant achievement in terms of you and the President's 
ambition to deal with this issue of nuclear proliferation.
    But I want to talk about Iraq. I am very concerned about 
these upcoming elections in Iraq. Chairman Berman and Chairman 
Ackerman and several of us on this side of the aisle sent a 
letter to the President last month. We hear a lot about the 
deficits, and my understanding is that we are quickly 
approaching $1 trillion in terms of not the human but the 
financial cost of the war in Iraq. So that is obviously a 
significant component of the deficit challenge that we have to 
address.
    And there is a lot of talk about Iran. There was an 
interesting op-ed piece this morning in the Post by David 
Ignatius where he reports the observation by General Odierno 
that the administration is clearly concerned about the possible 
manipulation of the Iraqi elections by Iran. I found it 
interesting that according to that op-ed piece, the primary 
agent in this effort is none other than Ahmed Chalabi, whom we 
all remember was a key player in terms of providing 
intelligence that led the previous Congresses under the 
previous administration to authorize the war in Iraq.
    But just to quote one section and then to ask for your 
response to the question, what are we doing about this apparent 
manipulation by the Iranians in terms of the Iraqi elections 
that are going to mean so much in terms of what post-occupation 
Iraq looks like and whether we have an ally in Iraq or whether 
there is a state in Iraq that is more aligned with Iran, as 
some of us said 6, 7 years ago was a possibility?
    This is just an observation by General Odierno: Iran 
interferes in Iraq's political process, urging alliances that 
not all Iraqi politicians favor. In an effort to consolidate 
power among parties supported by Iran, for example, Ahmed 
Chalabi met with the Commander of the Iranian Revolutionary 
Guard and the Iranian Foreign Minister to discuss the merger of 
two slates of Shiite candidates backed by Iran.
    Your comment, please.
    Secretary Clinton. Well, Congressman, we are very focused 
on these elections. I will make three quick observations.
    First, there is no doubt that not only Iran but other 
neighbors are doing what they can to support or influence the 
outcome of the election. We are most concerned and focused on 
Iran because of their ties with many Iraqis who had previously 
sought exile or refuge in Iran who were supportive of the 
efforts against Saddam Hussein. You know very well the story.
    Yet at the same time we see on balance the Iraqis are much 
more nationalistic and much more willing to stand up for 
themselves vis-a-vis Iran with the exception of some Iraqis who 
have a different agenda, who are carrying water, if you will, 
for the Iranians.
    So I cannot sit here and predict what the outcome of the 
election will be, but we are trying to ensure as big a 
participation as possible, which we think mitigates against the 
Iranian influence. We are trying to ensure that Iraqi refugees 
in Syria, Jordan and elsewhere are empowered to vote. We are 
trying to ensure insofar as possible that there are significant 
electoral observers, both of the voting and of the 2-week 
counting process. And then we are going to be very active in 
supporting the government formation process.
    Mr. Ackerman [presiding]. The time of the gentleman has 
expired.
    Mr. Paul from Texas.
    Mr. Paul. Welcome, Madam Secretary. I have a question about 
the cost of our foreign operations. We are now in the midst of 
a financial crisis. We have a heavy burden of debt. We know 
what debt can do. Greece is experiencing that type of problem. 
We could reach that problem, I believe, if we continue to do 
what we are doing. The international affairs budget 10 years 
ago was $23 billion and now it is $54 billion. That is a 
tremendous increase and that is not all from this 
administration, obviously. But during that same period of time 
the real wages of most American workers has gone down, and the 
unemployment right now, according to the Department of Labor, 
the under employment, is 20 percent. So this is nothing to 
ignore and it is related to all of our spending.
    A lot of Americans can't justify the amount of money we are 
spending, both in the war effort and in our affairs around the 
world. Quite frankly, there are some who don't feel a lot safer 
for it, but there is a human price that we are paying. We have 
lost over 5,000 Americans in fighting these wars, over 1,000 
now in Afghanistan alone. There are hundreds of thousands of 
casualties of veterans coming back with both physical and 
mental problems. They are going to be needing care for many, 
many years. The cost of all of this is probably, in the last 10 
years, could easily be $1.5 trillion.
    Also there is the refugee problem. We have hundreds of 
thousands of refugees still, you know, experiencing difficulty 
both in Iraq and Afghanistan. Just this very last month 24,000 
refugees were added in the invasion into Afghanistan. Yesterday 
we had a report from the United Nations that there were 346 
children killed in Afghanistan. So the violence affects 
everybody and that truly is a cost.
    But the more specific question I have for you is one of 
priorities. Obviously what is going on here in the Congress is 
everybody justifies all of their spending. People here justify 
the domestic spending, and people justify the overseas spending 
and the war spending, and they worry about not having enough 
bipartisanship. I worry about too much because they get 
together and they enjoy spending both places and nobody cares 
about the deficit.
    I want to specifically ask you about the Embassy in London 
because people can see that and they can feel it. We built an 
Embassy in Baghdad and it cost close to $1 billion. We built 
one in Kabul which cost close to $1 billion, and then there are 
always cost overruns and the maintenance. It is very, very 
expensive. I think the American people have a hard time 
understanding what we are doing in London.
    Assume for a minute that you could come to my district and 
talk to some of my unemployed people and explain to them why it 
is in their interest to spend, for the American people to spend 
$1 billion building a fortress in London when they are falling 
through the cracks and their wages have gone down, the ones 
that have work. See if you can relate to them and explain to 
them the importance, and you have to say that that $1 billion 
will have to be more debt because where are you going to save 
it. Can you explain that to these unemployed people?
    Secretary Clinton. Congressman, with respect to the 
Embassy, we are selling 11 sites that we currently rent at very 
high cost in London to consolidate in one building. Therefore, 
the money that we gain from the sale of these buildings will be 
used to fund the Embassy. So we are not asking for additional 
or new money. The reason we need a platform like that Embassy 
in London is because we do so much work in every department of 
our Government through London. It is not just our diplomats, 
but obviously every other part of the American Government is 
represented there.
    So I believe I can make the case that we are not asking for 
new money on that. But I take very seriously your larger point, 
Congressman. It breaks my heart that 10 years ago we had a 
balanced budget, that we were on the way to paying down the 
debt of the budget of the United States of America. I served on 
the Budget Committee in the Senate, and I remember as vividly 
as if it were yesterday when we had a hearing in which Alan 
Greenspan came and justified increasing spending and cutting 
taxes, saying that we didn't really need to pay down the debt. 
Outrageous, in my view.
    Mr. Paul. Is there any place in your budget where you could 
cut anything significant?
    Secretary Clinton. We are cutting. Part of our problem is 
that we are now assuming so many of the post-conflict 
responsibilities, and that is the bulk of our increase, Mr. 
Congressman.
    Mr. Paul. Thank you.
    Mr. Ackerman. The time of the gentleman has expired.
    Mr. Carnahan from Missouri for 5 minutes.
    Mr. Carnahan. Welcome, Secretary Clinton.
    Yesterday our Oversight Subcommittee had Special Inspector 
General for Iraq Reconstruction, Stuart Bowen, testifying about 
reports they had done a year ago and recently talking about 
hard lessons learned in terms of vast amounts of money that was 
thrown into Iraq without having adequate structures in place, 
as well as overlap, money--literally billions of dollars--not 
being able to be accounted for. And I guess as we ramp up the 
military and civilian presence, tripling the civilians on the 
ground under this budget, what measures are in place to be sure 
that we are doing this in a targeted way that we can account 
for?
    Secretary Clinton. Well, Congressman, I take the lessons 
from the mistakes in the last years in Iraq and Afghanistan 
very seriously. We are trying to apply those lessons with much 
greater accountability, with much greater oversight of 
contractors. It is one of my highest priorities because I do 
believe strongly that I or someone should have to be able to 
justify not just to you but to your constituents why we are 
doing what we are doing and to do the very best job we can in 
order to eliminate the outrageous overruns and fraud, waste and 
abuse. I cannot justify the past. We are going to work as hard 
as we know how to make the present and the future better.
    We are looking at every single contract. There is so much 
waste in these contracts and so much that was literally just 
allowed to continue in the rush of everything that accompanied 
military action. So we are looking very hard at that and trying 
to make these adjustments. We will be reporting to you as we go 
forward.
    Mr. Carnahan. Thank you. I wanted to ask additionally about 
the Global Engagement Fund. I understand that it is a follow-up 
to the President's speech in Cairo and will focus on expanding 
opportunity, science and technology partnerships and human 
development issues. Could you provide us some details on what 
you hope that can accomplish?
    Secretary Clinton. Yes. We can give you certainly more 
specifics than the time permits. But this did arise out of the 
President's Cairo speech and his vision for a new beginning 
with Muslims around the world. We are enhancing our public 
diplomacy outreach. We are using more of the tools that America 
has, like our science and technology and education strengths. 
We have science envoys, distinguished Nobel Prize winners, and 
other very well known leading scientists going to Muslim 
majority countries. We have a lot of English language programs 
for young people that we are expanding. So we have a full range 
of such issues that bring a different message.
    And we don't want to forget that we have a very diverse 
Muslim population in the world. People get focused on just one 
part of the world, often to the exclusion of the entire spread 
of Islam from North Africa to Indonesia. So what works in one 
place or what we are trying doesn't necessarily mean that it 
will be the same somewhere else.
    Mr. Carnahan. One other point I want to make: I want to 
voice my support for your request to increase funding to 
Bosnia, particularly with the political challenges they face--
Presidential and parliamentary elections in October. How do you 
see us, strategy-wise, moving forward to help them once they 
get through the election process and to be sure that they are 
on track with constitutional reforms and momentum to be able to 
join the EU and NATO?
    Secretary Clinton. I appreciate your raising Bosnia, and I 
know that is a particular concern of yours because there does 
have to be constitutional reform, and we are pushing that as an 
important part of our outreach.
    I wanted to just specifically respond to you that as we 
look at Bosnia, this has been a priority for me this past year. 
We have to do it with the Europeans. We cannot do it alone. The 
EU and the neighbors have to take more responsibility. We have 
worked with the European Union, and I made this one of my 
highest agenda items with the new High Representative, Baroness 
Catherine Ashton. The EU and Europe has to make a stronger case 
to Bosnia as to why constitutional reforms are in their 
interest and will assist in their integration with the rest of 
the Europe.
    Mr. Carnahan. Thank you very much.
    Mr. Ackerman. The gentleman from California, Mr. 
Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much.
    Madam Secretary, I am sorry I have had to come in and out. 
We have a space program hearing that needed some attention. 
Just a few questions, Madam Secretary.
    I understand in your foreign aid budget that we provide 
nearly $10 million for programs in China. Now how does that 
make any sense at a time we are borrowing money from China, we 
actually are giving foreign aid to China?
    Secretary Clinton. Congressman, we are not giving any 
foreign aid to China. Let me just flip here to give you the 
best answer that I can.
    What we do is try to foster civil society inside China. We 
try to support Chinese activists who are working on issues that 
are important to our entire engagement with China, issues that 
have to do with human rights, with the rule of law, and 
environmental protections. The kinds of actions that we think 
are important.
    Our programs provide pilots and models that the Chinese 
people can subsequently adapt using their own resources. And we 
also provide assistance programs working with Tibetan 
communities to promote their interests as well.
    Mr. Rohrabacher. I notice that $5 million of it is economic 
support.
    Secretary Clinton. That is right. Economic support is 
provided to U.S. higher educational institutions and U.S. 
nongovernmental organizations working in China in line with 
earmarks.
    Mr. Rohrabacher. In line with earmarks?
    Secretary Clinton. Yes, sir.
    Mr. Rohrabacher. This was forced upon you by Congress?
    Secretary Clinton. Those were your words.
    Mr. Rohrabacher. All right. I am happy to see that we agree 
on something that should not be in the budget then. Thank you.
    Madam Secretary, the President when he first came into 
office and over his first year has done his best to basically 
use a conciliatory tone toward Iran in hopes of trying to 
create a situation where we could actually have some progress, 
and I have been one of the ones criticizing him for that. Has 
this worked out? We have had 1 year now. Has this conciliatory 
process or tone with Iran, has it worked to make the mullahs 
more open and interact with us in a better way? Or has it been 
looked at as a sign of weakness by this oppressive mullah 
regime?
    Secretary Clinton. Congressman, I think the President's 
policy of engagement has been very beneficial and welcomed by 
the rest of the world.
    Mr. Rohrabacher. What about the mullahs?
    Secretary Clinton. Well, clearly the President came with a 
two-track approach. One was an offer of engagement if the 
Iranians would engage seriously on matters that were critical 
to us; namely, their nuclear program, and there has not been a 
response. But the fact that the President reached out has 
brought us an enormous amount of credibility and goodwill in 
the rest of the world. But at the same time the President 
always said we have a dual track approach, and the approach of 
sanctions and pressure, it wasn't an afterthought, it went 
simultaneously with his offer of engagement.
    Mr. Rohrabacher. I want to suggest, Madam Secretary, that 
playing to our liberal, willy-nilly friends in Europe is less 
important for us than to be tough with a repressive regime, a 
murderous regime that has engaged in murdering people on their 
streets. Don't you think that this conciliatory tone, which as 
you just admitted certainly has not been accepted by the 
mullahs, has in some way depressed or at least hurt the spirit 
on the streets of Iran of those young people who are trying to 
struggle to end this mullah regime?
    Secretary Clinton. Congressman, no, we do not see evidence 
of that. We actually believe that if you take everything that 
we are doing together, including working to make sure that 
information continues to flow into Iran over the efforts by the 
government to block the Internet and satellite television and 
the like, if you look at the information coming out by those 
who have been detained, and I have talked to several people who 
have imprisoned by the Iranian regime, they actually think that 
President Obama has struck exactly the right tone and approach 
to give heart to the people who are putting their lives on the 
line, who know that we stand with them, know that we support 
their efforts, but also recognize that they have a long hard 
road ahead, and what we are trying to do is get international 
opinion that will force the Iranian regime to change its 
calculation.
    Mr. Ackerman. The time of the gentleman has expired.
    Mr. Rohrabacher. Thank you.
    Mr. Ackerman. The gentlewoman from Texas, Ms. Sheila 
Jackson Lee, 5 minutes.
    Ms. Jackson Lee. Madam Secretary, thank you again. I think 
it is important to acknowledge the seismic change of the 
policies of the Obama administration with your leadership and 
policy knowledge, that we have really changed the story of 
America around the world. I think that is an important point 
that we should affirm.
    We should also make note that in actuality our budget is 
very fiscally responsible. It is a budget that includes some of 
the hotspots of the world, Pakistan, Afghanistan and Iraq. And 
so in my comments I would like you to make mention and might I 
publicly say I am delighted to note that President Clinton is 
mending and we thank him for his work in Haiti.
    Let me also acknowledge the loss of a civil foreign officer 
in Haiti. Many of us have had our eyes on Haiti and I was down 
just about 2 weeks ago. What do you think going forward would 
be a potential supplemental on Haiti? What is the going forward 
approach for reconstruction and rebuild? Many Americans want to 
be engaged. Thank you for your work on the evangelists and 
others who had missteps and were arrested. We talked about 
that, too, and I asked for them to be given mercy, released, 
and they are gone. But I do think it is important to have some 
standard for faith organizations. All of them are trying to 
come down. Their intentions are good and I would like 
<greek-l>us  deg.to see us have that.
    I would like to get your assessment of the progress and the 
work of Pakistan. As you well know, I have advocated for 
Pakistan in the bad days. But I have seen, just as I had 
expected and hoped, a major commitment by the government and of 
course their work on the border.
    Two last points. I would like you to assess any focus that 
the State Department is having on the children of Afghanistan. 
My colleague talked about the loss of life. I would like to get 
a sense of whether you have a focus.
    My last point is a comment for your staff, if they could 
take this down. I have a constituent whose daughter was killed 
in America by a Peruvian student. The name is Lindsey Brasier 
in Austin, Texas. The perpetrator was Evelyn Denise Mezzich. 
That person is in Peru, and we have not been able to have that 
person brought back for justice. They have a felony of skipping 
bail and Interpol has this matter. This has been a tragedy 
which occurred in 1998. You know how tragic that is. I would 
appreciate being able to work with you on this extradition 
issue as relates internationally. Brief comments on those 
questions. I thank you again for your service and the 
President's policies.
    Secretary Clinton. Thank you, Congresswoman, and thank you 
for your attention to Haiti. We are working on a supplemental 
that we hope will come to the Congress in the next few weeks. 
It will include both replenishment of funds in the State 
Department and USAID principally, but also funding for the 
recovery and reconstruction efforts going forward.
    I think that the leadership role that the United States has 
played has redounded so greatly to our benefit, not only in the 
hemisphere but around the world. We will be having a conference 
March 31 co-hosted by the U.S. and the U.N., along with other 
major donor countries, that will look very specifically about 
the way forward. So we will hopefully continue to have strong 
bipartisan support in the Congress.
    Thank you for your continuing attention to Pakistan. I 
agree with you. I think this last year has demonstrated 
significant changes in approach and commitment from the 
Pakistani Government, the democratically elected government, as 
well as the military and intelligence services. Their 
cooperation with us in the recent arrests and apprehension of 
leading Taliban figures is I think very strong evidence of 
that.
    I share your concern about children in Afghanistan or 
anywhere in the world, really, and we are focused on doing what 
we can in cooperation with our partners who are sharing the 
donor responsibility in Afghanistan, and we can give you more 
information on that.
    Finally, my staff will work very closely with you on this 
request on behalf of your constituent and see what, if any, 
action we can take.
    Ms. Jackson Lee. Thank you. I look forward to working with 
you on the children issue. And thank you for the help with the 
mother who has been grieving for so long.
    Mr. Ackerman. Mr. Flake for 5 minutes.
    Mr. Flake. Thank you, Mr. Chairman.
    Since Dana took the only earmark question, I am left with 
just Cuba.
    Cuba has been mentioned a couple of times. You mentioned 
the dissident Tamayo who recently died, a tragic situation in 
that regard. Also we have the situation of Alan Gross, an 
American who is being held by the Cuban Government, was a USAID 
contractor there.
    The gentlelady from Florida mentioned in light of recent 
events there, that it is her hope that the Obama administration 
not offer any concessions to the Cuban Government. I would go a 
bit further. I would hope that this administration would stop 
offering concessions to the Cuban Government. These concessions 
have been offered not just by this administration but by many 
administrations in the past. I would argue that the policy we 
have where we deny Americans the freedom to travel to Cuba is a 
concession to the Cuban Government. Whether they admit it or 
not, whether they quietly lobby or publicly lobby for that 
change, I don't think they want it. And every time we seem to 
get close, they provoke us somehow and so we change our policy. 
I think we ought to do it because that is simply what is right.
    I was excited to hear that the Obama administration would 
recast our Cuban policy, and they took a good first step by 
allowing Cuban Americans the ability to visit their family 
members without restrictions and to remit money to their family 
members. That does a good deal to help the dissidents who are 
there and the families of those who are held prisoner.
    That is a good thing. But beyond that it seems our policy 
is on autopilot. The contractor who is being held by the Cuban 
Government, he was on a contract that was awarded by the Bush 
administration. We still have policies going forward that don't 
serve us well, I would argue. It goes from $400,000 in 
scholarships that brought two Cubans to America. Hundreds of 
thousands of dollars in Europe to try to persuade European 
governments to change their Cuba policy. Bumper stickers, 
``Made in Miami,'' that Cuban dissidents and others were 
supposed to put on their cars, for crying out loud. We have 
some of the craziest things going, and I see your smile so I 
think you probably agree, when we simply could say, and I am 
assuming we have put some of these USAID contracts on ice, 
given that we have one contractor in jail. Why don't we simply 
allow Americans to travel to Cuba unabated?
    I have no doubt that the Cuban Government will try to 
impose its own restrictions. They want the revenue that would 
come with travel but not the influence. But if somebody is 
going to limit my travel and the travel of my constituents, it 
should be a Communist, not this government. We should not be in 
that business. We should be able to say Americans should be 
able to travel.
    We talked about this the last time you were here. I know 
you are open. We have legislation moving. There are more than 
180 cosponsors to lift the travel ban, but there are things 
that the Obama administration can do prior to the passage of 
that legislation. We could lift some of the restrictions or 
dial back some of the restrictions imposed by the Bush 
administration on people-to-people travel and allow more of 
that.
    Can I have your thoughts on that?
    Secretary Clinton. Congressman, the reason I am smiling is 
because I think that we all share the same goal. The goal is to 
create changes for the better in the lives of the people of 
Cuba, promote democracy and freedom and hopefully see the time 
soon when the Cuban people have the same rights as we do. That 
is our goal, and that is what we are pursuing.
    The President's April announcement last year changed United 
States policy toward Cuba in a number of ways based on the 
evidence that we should try some different approaches, and we 
should really look at what it is we are doing that is actually 
helping the Cuban people because there is evidence that every 
time we try to encourage more free flow of people and 
information, the Castro regime shuts down. That is the last 
thing that they want. They do not want Americans traveling 
freely, remittances coming in, more communications systems, 
back and forth. We are working very hard to break through the 
control of the media but in a smart way.
    I am looking at every single program because frankly I want 
things that work. If we have been doing something over and over 
and over again and it is not working to help the people in 
Cuba, then we need to take a look at it.
    Mr. Flake. Let me just offer, TV and Radio Marti, we can 
move. Thank you.
    Mr. Ackerman. The time of the gentleman has expired. The 
gentleman from North Carolina for 5 minutes.
    Mr. Miller. Madam Secretary, I very much understand the 
need to support development, but I worry about the next set of 
conflicts that may involve us, and even if they don't involve 
us, will be catastrophic for the people who live in the 
societies in conflict. General Anthony Zinni said that 
ungoverned areas and extreme poverty were a Petri dish for 
extremism and radicalism. And certainly there is an unholy mix 
of weak states, ungoverned areas, extreme poverty with a lack 
of any real economic development and conflict. And a quarter to 
a third of the states that are in conflict will fall into 
conflict again within 5 years, whether it is the same conflict 
or another conflict. And conflict leads to poverty and poverty 
leads to conflict, and all of it leads to very weak states, 
states that cannot survive the pressures on them.
    The budget increases development assistance by 18.3 
percent, the proposed budget; 23.1 percent for economic support 
funds, but there are other areas that seem to be important for 
avoiding conflict, for conflict-prone societies; a 13 percent 
decrease for the Transition Initiatives Account. How much of 
the increases for the Development Assistance and Economic 
Support Fund goes to those frontline states? Is the budget 
sufficient to meet the needs in the other parts of the world 
where there is extreme poverty and either conflict now or 
potential for conflict, and what are the pressures on the 
budget, on that part of the budget?
    Secretary Clinton. Congressman, it is a balancing act. I 
mean, that is what we do every single day. We have incurred 
responsibilities in the frontline states in Iraq, Afghanistan 
and Pakistan because of policies that were there when we came 
into office, but which we have responsibility to fulfill. So as 
you rightly point out, a significant percentage of what we are 
doing in development and assistance is going to those three 
countries.
    At the same time we have tried to identify countries that 
are in that Petri dish that you describe, that are really on 
the brink of collapse or becoming a failed state, from which 
extremism is being exported. Yemen is obviously the key 
example. And we are bolstering our involvement and assistance 
in ways that we hope will stabilize those countries, but there 
are so many places now and particularly in Africa that are 
vulnerable, and it concerns me greatly what I see happening 
across that continent. And I think we have to do a better job 
coordinating other investments from nongovernmental donors, 
from the private sector, so that we know what is happening, 
where it is, and what the consequences are. And we also need to 
do a better job of making sure what we are doing actually has 
good results, we are not just putting money in for the sake of 
saying we have done it. So it is a very difficult calculation.
    Mr. Miller. You mentioned Yemen and obviously Yemen has 
gotten a fair amount of attention. It is an ungoverned or 
lightly governed area with severe economic problems, but it 
also looks like in a decade the people of Yemen will look back 
on the way things are now as the good old days. They are 
running out of oil. Oil is the great bulk of their government 
revenue. They are running out of water. I don't know what you 
do with a country that runs out of water. What are we doing in 
Yemen and, as you put it, how are we making sure that the 
assistance we are providing is being effective, it is meeting 
needs and it is actually anticipating the problems that are 
coming at them?
    Secretary Clinton. Well, this is a country that there is 
increasing interest from many others as well. I represented the 
United States at a conference about Yemen in London about a 
couple of weeks ago, and we are trying to do a better job 
coordinating. Some of the Gulf countries are much larger 
contributors than we are. What is hard is the Government of 
Yemen came to that meeting with a plan for development that 
they had adopted, which was sensible, and a recognition of a 
lot of their shortcomings. They have to change their 
agricultural product production if they are going to save their 
water, and that is a huge undertaking. But we are working in 
concert with others to try to help the government fulfill its 
own objectives.
    Mr. Ackerman. Gentleman from Arkansas, Mr. Boozman, for 5 
minutes.
    Mr. Boozman. Thank you, Mr. Chairman. And again I want to 
send you warm greetings from your many, many friends in 
Arkansas, and we appreciate having you here today.
    I would like to ask you real quickly about the fact that 
the committee seems to indicate that they are going to propose 
the Armenian genocide resolution. And right now--currently the 
Turks and the Armenians are in the process of having protocol, 
normalization, talks and things. What I would like to know is 
your opinion of how that would affect that. And also the impact 
on the Turkish United States. Several years ago when I was in 
Incirlik visiting with the commanders there, they were really 
concerned about force protection, really far reaching problems 
if that were allowed to go forward.
    Secretary Clinton. Well, Congressman, on Turkey-Armenia 
relations it is our position that the normalization process 
that Turkey and Armenia have undertaken carries important 
benefits for both sides and it should take place without 
preconditions and within a reasonable time frame. Last year in 
his Armenia Remembrance Day statement, President Obama made 
clear that our interest remains a full, frank and just 
acknowledgement of the facts related to the historical events. 
But the best way to do that with all respect is for the 
Armenian and Turkish people themselves to address the facts of 
their past as part of their efforts to move forward, and in 
that spirit we are working very hard to assist Armenia and 
Turkey in their efforts. We would like to continue to support 
that effort and not be diverted in any way at all.
    Mr. Boozman. Very good.
    While testifying before the House Foreign Affairs Committee 
last October Assistant Secretary Jeff Feltman said that the 
State Department was in the process of reviewing 20 countries--
20 companies, rather, that could be sanctioned under the 
Iranian Sanctions Act. He indicated this review would last 
about 45 days and an answer on those companies would be 
released at that time. Recently a few of my colleagues received 
a single page response in that regard.
    Can you enlighten us a little bit in that regard.
    Secretary Clinton. Yes, Congressman. In response to 
Congressman Sherman, I laid out the process we have followed. 
The preliminary report was delivered in February and it made 
clear that we are doing in-depth investigation into a number of 
companies. We have already reached out to other countries on 
this. We have asked our embassies around the world to acquire 
additional information and we are offering in the near future a 
classified briefing for Members who wish to get into depth. 
There is a lot of information that would be better conveyed in 
a classified setting.
    But we are taking this very seriously. There wasn't any 
action taken in the prior 8 years. The only time there has been 
action on the Iran Sanctions Act was by former Secretary 
Madeleine Albright and then that was waived because of national 
security interests. So this is an incredibly complex arena, but 
we are moving in a deliberative and thorough way and we look 
forward to briefing you in a classified setting.
    Mr. Boozman. Good. Thank you. One other thing real quick, I 
know that the economic support funds for 2011 has been cut 
nearly $26 million. Can you comment on--you know, that is a 
pretty significant cut at a time when Sudan is due for its 
first democratic elections in decades, and the future of the 
comprehensive peace agreement for Sudan really does hang in the 
balance. Can you comment a little bit about that and if that is 
going to be a problem?
    Secretary Clinton. Well, Congressman, our information is 
that we actually have an increase in assistance for Southern 
Sudan. So we will get to you a written response because that is 
the second time I have been asked that question. So either we 
haven't presented it in a clear enough way or there may be some 
interpretation we are not aware of. But I take the point, the 
larger point very seriously. We have to do more to help prepare 
Southern Sudan for a future dependent upon the choice it makes. 
If it is going to choose independence, then it needs a lot of 
work to have the institutions of statehood. And we are putting 
more diplomatic and development assets in order to try to help 
the Southern Sudanese as they work through these decisions.
    Mr. Boozman. Thank you, Madam Secretary.
    Mr. Ackerman. The gentleman from Georgia, Mr. Scott, 5 
minutes.
    Mr. Scott. Thank you very much, Mr. Chairman. Welcome 
again, Madam Secretary. It is always a pleasure to see you, and 
let me compliment you on the extraordinary job that you 
continue to do as our Secretary of State.
    I would like to focus on Yemen again, having been there 
last year. I think we need to go a little deeper into this 
because this is a very dangerous place and it appears to me we 
are on the front lines there now, our State Department 
personnel, our embassies and our special operations people, 
particularly our Navy Seals. And at a recent questioning I 
asked about any effort from a military standpoint of getting in 
there and of course the question is no. So that leaves it that 
you are on the front lines there in trying to combat this and 
in trying to deal with it.
    Yemen is seriously I think approaching and utilizing and 
training with al-Qaeda, al-Qaeda in the Arabian Peninsula, 
their relationship with Somalia and training camps there. When 
I was there with Special Ops we visually saw these things 
happening. Now in your referral to your comment to my 
colleague, Mr. Miller, you mentioned of our aid that is going 
in there, but the problem is President Saleh has two 
reluctances. First of all, he has the reluctance to go after 
al-Qaeda and he has the reluctance of wanting more of our aid. 
So it is sort of like we are in a Catch-22 here.
    So I would like your assessment of how do we effectively 
use our resources in this kind of an environment where the 
people of Yemen themselves and the President's reluctance to be 
seen taking our aid, taking more of it and at the same time is 
his reluctance to even go after al-Qaeda.
    Secretary Clinton. Congressman, that is an astute 
description of the challenges that we face. In addition to what 
you have stated, there are also continuing problems in the 
north and the south in addition to AQAP. In the international 
conference about Yemen in London it became clear that other 
countries, particularly in the Gulf, provide much more funding 
for Yemen than we do or that we will. Therefore, they have to 
be united with us in the messages that we convey to President 
Saleh. And I agree that we have to work very hard to have a 
united front with all the international donors. Some of the 
European countries have long-standing connections with Yemen, 
certainly Saudi Arabia, Qatar and others in the region do. And 
I am focused on how we send as clear and unequivocal a message 
as possible as to what is expected in return for this aid. We 
do have to be sensitive to some of the local concerns about 
American involvement, but at the same time Yemen sits 25 miles 
across the Gulf from Somalia, and we know that there is that 
constant continuing connection.
    We will have more to report to you as we follow through on 
our policy here, but it is a mixed policy, it is an 
international policy. It is all aimed at influencing 
Presidential decisions, because as you saw, that is where they 
all come from and we have to support the President in making 
the right decisions. But this is going to be challenging.
    Mr. Scott. What do you suggest that we should do 
specifically about the evidence of the growing al-Qaeda 
training camps in both Yemen and Somalia?
    Secretary Clinton. Well, I think the Government of Yemen 
has in the last few months been very active in going after 
training camps and identified members of al-Qaeda. So they are 
beginning to do what we would hope they would do, which is to 
protect their own country against the threat of growing 
extremism. But I think we and others in this international 
effort have to continue to support them, provide intelligence 
assets, provide surveillance assets, provide military equipment 
and training, all of which we are doing and all of which is 
very necessary if they are going to be successful in going 
after this threat.
    Mr. Scott. Thank you.
    Mr. Ackerman. The gentleman from Nebraska, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Good morning, 
Madam Secretary. Welcome. Thank you so much for coming today. I 
would like to ask you two questions centered on Iran and 
bioterrorism. But before I do, given our previous dialogue, my 
conscience demands that I raise the issue with you again of 
including abortion as reproductive health care and including it 
as an integral component of our foreign affairs considerations. 
I believe this actually undermines our good diplomatic 
initiatives. Abortion is not health care; abortion is so often 
the result of abandonment. Women deserve better and certain 
taxpayers should not be put in the position of paying for it 
either here in the United States or underwriting it in our 
international programs. So I respectfully request that you 
reconsider your position.
    With that, let me return to Iran. I fear that we will all 
awake to the headline one day soon that Iran has the bomb. This 
would be a geopolitical game changer. I am very appreciative of 
your intensified efforts of late in this regard. I would like 
to hear your outlook though for the next 6 months. There is 
just so little time left.
    Secondly, I would like to hear what the State Department is 
doing to lead international diplomatic efforts to prevent 
bioterrorism, especially within the context of the G-8 Global 
Health Security Initiative for medical countermeasures, 
including stockpiling and delivery. As you are aware, the 
Weapons of Mass Destruction Commission unanimously concluded 
that bioterrorism is the most likely WMD threat that the world 
faces.
    Secretary Clinton. Thank you very much, Congressman. And 
let me respond to your point and to some of the points made by 
Congressman Smith. First of all, the United States Government 
does not fund abortions. We don't. We are increasing our 
funding to organizations that provide family planning services 
and maternal health. In fact, the budget provides $700 million 
to combat maternal mortality, with expanded coverage of 
prevention and lifesaving interventions such as the prevention 
and management of postpartum hemorrhaging and other terrible 
consequences of uncared for pregnancy that I take very 
seriously.
    I think that in many ways you and Congressman Smith and I 
have actually some of the shared views and concerns, but we do 
believe it is important to provide money, which we do in this 
budget, $590 million, for family planning and reproductive 
health, because so much of what happens in the health of women 
in developing countries is because they cannot control their 
reproductive health, and it is a matter of great concern to me 
because many of these women are very young, they are not 
prepared for pregnancy, they often suffer grievous injuries 
during labor and birth because they do not have adequate 
treatment, and that is one of the reasons why in our Global 
Health Initiative we are expanding America's commitment to 
maternal and child health.
    So we share some of the very same goals, and I hope to be 
able to work with you. Where we differ is on the question of a 
woman's right to choose, but we would like to avoid the choice 
that could lead to abortion by providing better resources and 
support for women around the world.
    Mr. Fortenberry. Before we pivot to the other two 
questions, though, you have redefined abortion as a part of 
reproductive health care for the first time and overturned the 
Mexico City policy which would again underwrite organizations 
who would participate in the act of abortion.
    Secretary Clinton. Well, you know, this is a debate that 
goes back many, many years and, you know, we do not believe in 
the gag rule, we do not believe that women should be deprived 
of information that might be important to their health and to 
plan for their own families. And as we exchanged views the last 
time I was here, I have seen the consequences of just terrible 
medical treatment that women have been subjected to because 
they didn't have the right to pursue what was in their own 
interest, but we will not agree on that, but we will agree that 
we need to do more to help with maternal and child health I 
hope.
    Mr. Fortenberry. Thank you.
    Secretary Clinton. With respect to the outlook for Iran, 
obviously we believe that we have made progress in changing the 
attitudes of a number of nations toward Iran. We are going to 
continue to do so. We share your concern about Iran's ambitions 
and its program and we are making the case very vigorously 
around the world about what the consequences would be for other 
countries.
    I think when I started 1 year ago many countries were not 
convinced that this is a problem that had anything to do with 
them, and we have every day made the case that a nuclear armed 
Iran will create an arms race in the Gulf that will destabilize 
the region that so much of the rest of the world depends upon 
for oil and gas. It could even lead to conflict, which would be 
an economic catastrophe for many countries that are so reliant, 
and therefore countries should join with us in doing everything 
we can to demonstrate international unity in pressuring Iran to 
change direction, and that is what we are engaged in vigorously 
right now.
    Finally, Congressman, the United States leads the world in 
terms of overall biopreparedness but there is a lot more we 
need to do. We are trying to work with the international 
community to pay more attention to the bioterrorist threat, to 
implement new policies, to stockpile vaccines. We are assisting 
with that through a wide range of activities. For example, we 
have foreign assistance programs that are specifically aimed at 
biological threats across South and Southeast Asia, the Middle 
East, and expanding into Africa, and we take it very seriously 
and will work to that end.
    Mr. Fortenberry. Thank you.
    Chairman Berman [presiding]. The time of the gentleman is 
expired. The gentleman from Minnesota, Mr. Ellison, is 
recognized for 5 minutes.
    Mr. Ellison. Good morning, Madam Secretary. Let me join 
some of my colleagues in applauding you. I like the budget and 
I intend to support it.
    My first question has to do with the administration's 
commitment to try to support UNRWA and people who are trying to 
make it in Gaza, not the people who are engaged in terrorist 
activities but the regular folks who are trying to survive, but 
some of the assistance that we have given already has not 
really made it to the people and I would just be curious as to 
your thoughts as to how we might be able to actually get some 
of this humanitarian assistance into the hands of folks who we 
intended in to help.
    Secretary Clinton. Well, we happen to believe that UNRWA is 
a vital humanitarian actor that does provide critical services 
and assistance that would otherwise be provided by extremist 
groups. We can't have it both ways. If we are not in there 
supporting UNRWA and actually providing services, I believe 
that the situation would become even more threatening to us and 
to Israel. So UNRWA is an indispensable counterweight to 
radicalism, to terrorism, particularly in Gaza and Lebanon. And 
in fact UNRWA's efforts are supported by the Governments of 
Israel, Lebanon, Syria and Jordan and the Palestinian 
authority. So that is a pretty broad cross-section of the 
region. And we do closely monitor what UNRWA does. We make sure 
it meets all of the conditions for funding under our law and 
the Foreign Assistance Act provision. And we have worked to 
make sure that UNRWA implements measures designed to ensure the 
neutrality of its staff, including preemployment checks, 
sharing the list of staff member names with host governments on 
an annual basis, and so much else.
    And I share your concern that we are not getting enough 
help into Gaza. I have raised this consistently with the 
Israeli Government. They have made certain moves which have 
increased the flow of food and clean water and medicine, but I 
think more could be done that would not provide any threat to 
Israeli security and we raise that with the Israelis on a 
regular basis.
    But I think you are right that what we want to do is 
support the regular folks, not do anything that empowers Hamas. 
And much of the material that gets into Gaza, which still comes 
through the tunnels, through smuggling actually, is taxed by 
Hamas, which then provides Hamas with the money that they use 
to buy arms and other material that is used against Israel.
    So I look at things from a real logical perspective. What 
can we do to undermine Hamas, to support the security of 
Israel, and to help the<greek-l>, quote, deg. ``regular folks'' 
so that they don't turn to extremism.
    Mr. Ellison. I couldn't have said it better myself.
    About 60 percent of the 2.5 million internally displaced 
people in Pakistan are women. What is the USAID package or 
programs doing specifically to address the need of female 
refugees in Pakistan?
    Secretary Clinton. Well, Congressman, we are working very 
hard. We have a range of programs that assist refugees. We also 
have tried to target aid to women refugees. One example, which 
was a great public/private partnership, is last summer we 
reached out to Pakistani-American doctors and nurses and asked 
them to go to the refugee camps because women were not getting 
adequate medical services. And we had several dozen Pakistani 
doctors, mostly women, who took time off from their practices, 
took 6 weeks, went to Swat, worked with refugee women.
    So we are always looking for ways that we can get the aid 
to women and children because they are often the ones that are 
most severely dislocated and damaged by any kind of conflict.
    Mr. Ellison. Well, Madam Secretary, I just want to say that 
I appreciate that, because as you and the President reach out 
to the Muslim world, and I certainly commend that, you should 
just bear in mind that the United States is part of that world, 
and to draw upon American talent, medical talent or otherwise 
is just a very good idea.
    I will just end with an editorial comment, and that is the 
people who stood up against the position to condemn the 
Goldstone report never claimed that the Goldstone report was 
completely accurate. The point was that most of us hadn't read 
it and we would hope that Israel would participate in that 
report to make its points, which it certainly had evidence to 
make, and so that is--my time is out.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Texas, Mr. McCaul. And I just mentioned to the 
committee members that the Secretary has to leave at 12:15.
    Mr. McCaul. Thank you, Mr. Chairman. I yield 15 seconds to 
the gentlelady from Florida.
    Ms. Ros-Lehtinen. So thankful to you. Madam Secretary, I 
will be handing you a letter that I have written regarding the 
protection of the Iranians who are in Camp Ashraf in Iraq. We 
are very worried about their plight. We have made commitments 
to them to make sure that certain action would not be taken 
against them, and I fear that as we keep moving those 
protections are going to be taken away and certain guarantees.
    Thank you, Mr. McCaul, and I have that letter for you in 
writing. Thank you, Madam Secretary.
    Mr. McCaul. Thank you. And thank you, Madam Secretary, for 
being here today. I introduced a resolution today, and I thank 
the ranking member for cosponsoring it, condemning the human 
rights violations in Iran and supporting voices of freedom and 
democracy. I hope you will take a look at that. I think it is 
something that we need to be doing. I am also concerned about 
Iran's influence in the region, both in Iraq, Afghanistan and 
Pakistan, and I wanted to see if you could touch on that point.
    And my second question from a budgetary standpoint has to 
do with--I think we are making some great military success in 
Afghanistan now. I think the Pakistan military, ISI are really 
starting to step up to the plate really for the first time in 
years, and I commend you and the administration for that.
    We honored Charlie Wilson at his funeral the other day, and 
of course after we defeated the Soviets his big point was we 
left a vacuum, and I think he was right. Joanne Herring, who 
was a constituent mine was sort of the driving force behind 
Charlie. You probably know Joanne. She is very flamboyant, a 
very passionate voice for the Afghan people and Pakistan. She 
has this idea of a Marshal plan sort of for the region.
    I know that State through USAID has outlined in the budget 
an Afghan-Pakistan regional stabilization strategy to achieve 
some of this. I wanted to see if you could comment on what 
State is doing in that respect because I think we have to win 
militarily, but we also have to provide economic stability and 
win the hearts and minds.
    Secretary Clinton. Congressman, I agree with that, and I 
hope every Member has gotten a copy of the Afghanistan and 
Pakistan Regional Stabilization Strategy. If not, we will be 
sure that you do, because it is very specific about what we are 
trying to do, what we are doing in agriculture, education, 
women's rights and so much else.
    In order to do that we have to have the civilians on the 
ground. We have 920. That is more than triple what we had when 
we started last year. They are doing extraordinary work. I 
mentioned earlier that we had civilians embedded with our 
forces going into Marja, and they are now literally moving in 
to help stand up the presence of Afghanistan governmental 
authority.
    It is a very challenging task, but we have people that are 
dedicated to doing that and to make sure that what Charlie 
Wilson said doesn't happen again. You know, I am glad he was so 
honored at Arlington and so many people who really understood 
his contributions. And yet this is going to be hard work. Part 
of it is that there are no quick answers to begin to rebuild 
Afghanistan culture, and to move people away from poppies to 
pomegranates is a long-term investment. We are seeing results 
already, but we have a long way to go. Building up local 
governance when we cleared Marja by the courage of our military 
forces, you know, we have to have the presence of an 
Afghanistan Government at the subnational level that can begin 
to build the confidence of the people, a police force that will 
keep law and order.
    We are working hard on all of these, which are laid out in 
the stabilization strategy, but I appreciate your reminder of 
what might happen if we did walk away again. So we are going to 
keep working on it.
    Chairman Berman. 3 minutes, but the only reset policy we 
have is with Russia, not with the clock.
    Mr. McCaul. Okay.
    Chairman Berman. It got reset for some reason that I don't 
know about.
    Mr. McCaul. Thank you, Madam Secretary.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from American Samoa, the chairman of the 
Asia, the Pacific and the Global 
Environment<greek-l>Islands deg. Subcommittee, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman and Madam 
Secretary. Let me begin by stating my firm conviction that 
under your leadership and that of President Obama the United 
States is well on its way to restoring the credibility of the 
United States in the eyes of the world. I also want to 
especially thank you and President Obama for all the support 
that you showed the Samoan people in the aftermath of the 
earthquake and the tsunami that struck the islands of Tonga and 
Samoa in September of last year. Your help was critical in 
cutting the red tape and allowing critical emergency donations 
from our Samoan and Tongan communities in the United States to 
be airlifted. For your leadership and quick response I, on the 
behalf of all Samoans, will always be grateful.
    I also want to congratulate you, Madam Secretary, for the 
special emphasis you and the President have placed on 
reengaging and upgrading our relationships with the countries 
of the Asia Pacific region, the world's most dynamic, in my 
humble opinion. The time and thought you have put into our 
policies toward the region have demonstrably improved the 
United States position in this important part of the world.
    I also want to say that I had an excellent meeting a couple 
of days ago with Assistant Secretary Kurt Campbell, and I want 
to thank you personally for your decision recently to 
reestablish the presence of USAID in the Pacific region. As you 
know, Madam Secretary, I have been screaming about this for 
years and years and I sincerely hope this is not just a token 
presence, but a substantive one to help some 17 to 18 Pacific 
Island nations that I feel are so important for us as part of 
our foreign policy in this region.
    Madam Secretary, it was announced this month that the 
President is going to visit Guam, Indonesia, and also 
Australia. May I also suggest, if at all possible, that on the 
President's return from Australia, he stop by in American Samoa 
just to say thank you to the thousands and thousands of our men 
and women who are in the military. I don't know if you are 
aware of the fact that on a per capita basis, our little 
territory sustains more casualties and deaths as a result of 
the wars in Afghanistan and Iraq. And I just think that our 
veterans and our people would deeply appreciate it if the 
President would just stop by there and say hello on his way 
back from Australia.
    The last Presidential visit that my little territory had 
was in 1967. That was 43 years ago. Now I realize the President 
wants to celebrate the 70th anniversary of the treaty of 
friendship with Australia. But I would just like to say that 
this year in April, we will be celebrating the 110 anniversary 
of when the American flag was raised in American Samoa. We have 
a unique political relationship between American Samoa and this 
great Nation of ours.
    So I just wanted to convey my humble request, that, if at 
all possible, the President would do this.
    A couple other issues I want to share with you, Madam 
Secretary. I know there is not enough time. I visited Laos. We 
have got a serious problem with unexploded ordnance and cluster 
bombs that we created. This country never attacked us. We need 
to make improvements on that.
    Debt forgiveness in Cambodia, the problems of Agent Orange 
in Vietnam that we have never really addressed properly, and 
also the current negotiations going on with the Federated 
States of Micronesia and Palau. I think we need a little better 
attention in terms of the needs of these important countries.
    It was my privilege recently, Madam Secretary, to travel 
with Senator Cardin and Congressman Alcee Hastings to attend 
the OSCE meeting of some 56 nations in Europe. And I want to 
implore you on your good grace to make sure that Kazakhstan is 
well understood in terms of the importance that the country 
plays, not only as part of the Central Asian region, but the 
important role that it plays especially when it comes to 
nonproliferation, and you are well aware of that.
    Madam Secretary, I know my time is about up, but I just 
want to say thank you again for all your help.
    Secretary Clinton. Thank you for that, Representative. I so 
appreciate your kind words. I will convey them, along with your 
invitation to President Obama. And I have enjoyed working with 
the heads of state from the Pacific Island nations, both at a 
meeting that I chaired at the United Nations General Assembly 
and again in Copenhagen.
    Mr. Faleomavaega. Thank you.
    Chairman Berman. The time of the gentleman has expired. And 
the gentleman from Texas, who is not here. The gentleman from 
Florida, Mr. Mack, is recognized for 5 minutes.
    Mr. Mack.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
